No. 19-___
IN THE

Supreme Court of the United States
————
GEORGE L. MILLER, Chapter 7 Trustee for the
Estate of HOMEBANC CORP.,
Petitioner,

v.

BEAR STEARNS & CO., INC.;
BEAR STEARNS INTERNATIONAL LIMITED;
HOMEBANC CORP.;
STRATEGIC MORTGAGE OPPORTUNITIES REIT, INC.;
Respondents.
WELLS FARGO, N.A.,
in its capacity as Securities Administrator,
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
————
PETITION FOR WRIT OF CERTIORARI
————
JOHN T. CARROLL, III
COZEN O’CONNOR
1201 N. Market St.
Suite 1001
Wilmington, DE 19801
(302) 295-2000

STEVEN M. COREN
Counsel of Record
KAUFMAN, COREN &
RESS, P.C.
2001 Market Street
Suite 3900
Two Commerce Square
Philadelphia, PA 19103
(215) 735-8700
scoren@kcr-law.com

Counsel for Petitioner
June 5, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
In times of acute economic distress, the automatic
stay of the Bankruptcy Code functions as a critical
circuit breaker: it backstops a vulnerable financial
system by slowing collateral grabs to protect the
creditors of reorganizing or liquidating bankruptcy
estates. Borne of the last financial crisis, this case is
the canary in the coal mine for the current one. As the
next wave of bankruptcies sweeps in, this appeal
presents an opportunity to protect the financial
system before mountains of collateral are swept away.
The 2007-2008 Financial Crisis was fueled by a run
on collateral underlying short-term lending facilities
known as repurchase agreements, in which securities
are sold with an agreement to repurchase them at a
specified date and price. The Third Circuit decision
below ignored express limitations in the safe harbor
provisions of the Bankruptcy Code relating to repo
financing and sanctioned the out-of-court liquidation
of $90 million of cash-flowing financial assets to satisfy
an $8 million prepetition debt. The Third Circuit’s
decision will have an outsized national impact on a
financial system spinning out of control as courts
nationwide look to the Delaware bankruptcy court for
guidance.
In this appeal, the Court is asked to decide whether
the Bankruptcy Code’s safe harbor language of
limitation should be enforced as written or the statute
interpreted as though the language of limitation does
not exist?

(i)

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Petitioner is George L. Miller, Chapter 7 Trustee
for the Estate of HomeBanc Corp., appellant below.
Respondents are Bear Stearns & Co., Inc., and
affiliates (collectively, “Bear Stearns”), appellees
below.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT ...............................

ii

TABLE OF AUTHORITIES ................................

v

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

STATUTORY PROVISIONS INVOLVED ..........

1

REASONS FOR GRANTING THE PETITION....

2

STATEMENT OF THE CASE ............................

3

THE PROCEEDINGS BELOW ..........................

4

ARGUMENT ........................................................

6

THE BANKRUPTCY CODE EXPRESSLY
LIMITS
STAY
RELIEF
ACCORDED
CREDIT ENHANCEMENTS (SUCH AS THE
SAI) TO PROTECT CREDITORS OF THE
BANKRUPTCY ESTATE.
THE THIRD
CIRCUIT WRONGLY NULLIFIED THE
STATUTORY LIMITATION ............................

6

CONCLUSION ....................................................

13

APPENDIX
APPENDIX A: OPINION, Court of Appeals
for the Third Circuit (December 24, 2019) ......

1a

APPENDIX B: SUR PETITION FOR REHEARING, Court of Appeals for the Third
Circuit (January 24, 2020)...............................

29a

(iii)

iv
TABLE OF CONTENTS—Continued
Page
APPENDIX C: JUDGMENT,
Court
of
Appeals for the Third Circuit (December 24,
2019) ...............................................................

31a

APPENDIX D: MEMORANDUM OPINION,
District Court for the District of Delaware
(August 14, 2018) ...........................................

33a

APPENDIX E: ORDER, District Court for
the District of Delaware (August 14, 2018)...

45a

APPENDIX F: OPINION, Bankruptcy Court
for the District of Delaware (May 31, 2017)..

46a

APPENDIX G: JUDGMENT,
Court
of
Appeals for the Third Circuit (December 24,
2019) ............................................................... 102a

v
TABLE OF AUTHORITIES
CASES

Page(s)

Bevill, Bresler & Schulman Asset Mgmt.
Corp. v. Spencer Sav. & Loan Ass’n,
878 F.2d 742 (3d Cir. 1989) ......................

11

In re Am. Home Mortg. Holdings, Inc.,
637 F.3d 246 (3d Cir. 2011) ......................

9

In re HomeBanc Mortg. Corp.,
573 B.R. 495 (Bankr. D. Del. 2017),
aff'd, 590 B.R. 69 (D. Del. 2018) ..............

1

In re HomeBanc Mortg. Corp.,
945 F.3d 801 (3d Cir. 2019) ......................

1

Loughrin v. United States,
573 U.S. 351 (2014) ...................................

8

Rosenberg v. XM Ventures,
274 F.3d 137 (3d Cir. 2001) ......................

8

Williams v. Taylor,
529 U.S. 362 (2000) ...................................

8

STATUTES
11 U.S.C. § 101(47)(A)(i) .............................. 10, 11
11 U.S.C. § 101(47)(A)(v) .............................passim
11 U.S.C. § 362 .............................................

3

11 U.S.C. § 559 .................................... 1-2, 3, 7, 11
11 U.S.C. § 562 ....................................... 6, 7, 9, 11
28 U.S.C. § 1254(l) ........................................

1

vi
TABLE OF AUTHORITIES—Continued
Page(s)
BANKRUPTCY ABUSE PREVENTION
AND CONSUMER PROTECTION ACT
OF 2005, PL 109–8, April 20, 2005, 119
Stat. 23 ......................................................

11

OTHER AUTHORITIES
Gary Gorton, Toomas Laarits & Andrew
Metrick, The Run on Repo and the Fed’s
Response, NAT’L BUR. ECON. RES., Working Paper 24866 (July 2018), available at
https://www.nber.org/papers/w24866.pdf.....

2

Nathan Goralnik, Bankruptcy-Proof Finance
and the Supply of Liquidity, 122 YALE
L.J. 460 (2012) ..........................................

2

PETITION FOR WRIT OF CERTIORARI
George L. Miller, Chapter 7 Trustee for the Estate
of HomeBanc Corp., petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Third Circuit.
OPINIONS BELOW
The opinion of the Third Circuit (Pet. App. 1a) is
reported at 945 F.3d 801. The order denying rehearing
en banc (Pet. App. 29a) is unreported. The opinion of
the district court (Pet. App. 33a) is reported at 590
B.R. 69. The opinion of the bankruptcy court is
reported at 573 B.R. 495 (Pet. App. 46a).
JURISDICTION
The Third Circuit entered its judgment on
December 24, 2019 (Pet. App. 31a), and the court
denied a timely petition for rehearing on January 24,
2020 (Pet. App. 29a). This Court’s jurisdiction is
invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Section 559 of Title 11 provides in pertinent part:
The exercise of a contractual right of a repo
participant … to cause the liquidation,
termination, or acceleration of a repurchase
agreement because of a condition of the kind
specified in section 365(e)(1) of this title shall
not be stayed, avoided, or otherwise limited
by operation of any provision of this title ….
Section 101, subsection 47 of Title 11 provides
(47) The term “repurchase agreement” (which
definition also applies to a reverse repurchase
agreement)—

2
(A) means—
* * *
(v) any security agreement or arrangement or other credit enhancement related to any agreement or transaction
referred to in clause (i), (ii), (iii), or (iv) …
but not to exceed the damages in
connection with any such agreement
or transaction, measured in accordance with section 562 of this title ….
(emphasis added).
REASONS FOR GRANTING THE PETITION
The financial system almost collapsed entirely in
2008 due, in large part, to the type of agreements at
issue in this appeal. Gary Gorton, Toomas Laarits &
Andrew Metrick, The Run on Repo and the Fed’s
Response, NAT’L BUR. ECON. RES., Working Paper
24866, at 2 (July 2018), available at https://www.
nber.org/papers/w24866.pdf. “The 2008 financial crisis
has prompted widespread criticism of the bankruptcy
safe harbors for repurchase agreements (repos) and
derivatives, which allow a failed firm’s counterparties
to enforce these contracts outside the bankruptcy
process. The emerging consensus holds that these
provisions facilitated a run on the assets of troubled
financial institutions such as Lehman Brothers and
should be curtailed to afford such firms greater protection from their counterparties.” Nathan Goralnik,
Bankruptcy-Proof Finance and the Supply of Liquidity,
122 YALE L.J. 460 (2012).
The Third Circuit’s decision disabled a critical brake
that prevents a recession from sliding into full-scale
economic collapse. Further percolation in the lower
courts is unwarranted and impractical. This impactful

3
issue is rarely raised because litigants in bankruptcy
proceedings are financially constrained already and
typically forgo years of cost-prohibitive litigation
which may further consume limited assets available in
the bankruptcy estate. Given that runs on the assets
of troubled financial institutions present during infrequent recessions, the time is ripe for this Court to
decide the scope of the automatic stay in the context of
repo financings that have the potential to disable the
financial system.
STATEMENT OF THE CASE
When it filed for bankruptcy in August 2007—the
eve of the last financial crisis—HomeBanc financed
its residential mortgage loan business through repurchase agreements with Bear Stearns. Bear held
residential mortgage-backed securities—HomeBanc’s
most-valuable assets—as collateral. Pet. App. 4a.
When a bankruptcy is filed, an estate is created to
preserve debtor property for the benefit of all its
creditors, and an automatic stay under 11 U.S.C. § 362
halts debt collection by individual creditors. The automatic stay is a hallmark of the bankruptcy system, as
it fosters the Bankruptcy Code’s fundamental objectives of debt restructuring and orderly liquidation in
accordance with specified distribution priorities.
Section 559 of the Bankruptcy Code affords safe
harbor protection to permit repo participants to liquidate their repo collateral without violating the
automatic stay. 11 U.S.C. § 559. The scope of the
safe harbor protection, however, is determined by the
type of collateral. Critical to this case, safe harbor
protection for additional collateral designated as
“credit enhancements” under 11 U.S.C. § 101(47)(A)(v)
is significantly limited. Traditional repos enjoy maxi-

4
mum safe harbor protection and therefore should be
liquidated first to repay the repo debt. If the traditional repo collateral is sufficient to satisfy the repo
debt, the additional collateral “credit enhancements”
should be returned to the bankruptcy estate. If liquidation of the traditional repos is insufficient to repay
the repo debt, the credit enhancements are available
to satisfy the deficiency.
The Third Circuit decision erroneously interpreted
the statute to eviscerate the limitation applicable to
credit enhancements, a result which permitted Bear
Stearns to retain a windfall of approximately $81
million to the detriment of all other creditors of the
HomeBanc bankruptcy estate. In short, the Third
Circuit decision provides a roadmap to repo lenders
who hold credit enhancements worth substantially
more than any deficiency which they secure—forgo the
deficiency claim like Bear did here, keep the credit
enhancements for yourself like Bear did here, and
keep a huge windfall like Bear did here.
THE PROCEEDINGS BELOW
Upon filing for bankruptcy, HomeBanc had a $64
million repo debt to Bear, which held 37 HomeBanc
mortgage-backed securities as collateral: 28 of which
were traditional repos as defined by the Bankruptcy
Code and 9 (referred to in this case as the “Securities
at Issue” or “SAI”) were additional collateral characterized by the Bankruptcy Code as “credit enhancements.”
On August 14, 2007, Bear lumped the 9 SAI with 27
of the 28 traditional repo securities and exposed them
to auction. The auction yielded two bids: a third-party
bid of approximately $2.2 million for two of the
traditional repo securities; and an “all or nothing” bid

5
of $60.5 million from Bear itself. Pet. App. 6a. Declaring itself the winning bidder and keeping the
HomeBanc securities for itself, Bear allocated its $60.5
million bid—which was never actually paid since the
buyer and seller were one and the same—the next
day across the 37 securities: $52.4 million to the 27
traditional repo securities; and $8.1 million divided
evenly among the 9 SAI ($900,000 apiece). Pet. App.
6a. Critically, the SAI credit enhancements for which
Bear credited HomeBanc a mere $8.1 million quickly
proceeded to cash flow far more than Bear had been
owed at the time of the auction, and went on to yield
more than $89 million, JA413 (Stipulation ¶ 19),
JA1208-1210 (Trial Ex.), thereby bestowing on Bear a
windfall of approximately $81 million beyond what it
was owed.
While the Bankruptcy Code affords stay relief to
repo lenders that is not afforded to secured lenders in
other contexts, repo financing is nothing more than a
lending transaction, and the safe harbor provisions
of the Bankruptcy Code should be interpreted with
that in mind. Lenders are entitled to be repaid with
interest. Windfalls are out of bounds, especially when
they come at the expense of the other creditors of a
bankruptcy estate.

6
ARGUMENT
THE BANKRUPTCY CODE EXPRESSLY LIMITS
STAY RELIEF ACCORDED CREDIT ENHANCEMENTS (SUCH AS THE SAI) TO PROTECT
CREDITORS OF THE BANKRUPTCY ESTATE.
THE THIRD CIRCUIT WRONGLY NULLIFIED
THE STATUTORY LIMITATION.
Qualified only as credit enhancements under
the catchall provision of 11 U.S.C. § 101(47)(A)(v), the
SAI’s repo status and accompanying safe harbor
protection were expressly limited by the statutory
definition itself.
In this regard, the Bankruptcy Code provides:
11 U.S.C § 101. Definitions . . .
(47) The term “repurchase agreement” . . .
(A) means—
* * *
(v) any . . . other credit enhancement
related to any agreement or transaction
referred to in clause (i), (ii), (iii), or (iv),
. . . but not to exceed the damages in
connection with any such agreement
or transaction, measured in accordance with section 562 of this title[.]
11 U.S.C. § 101(47)(A)(v) (emphasis added).
Quoting the statutory language of limitation which
itself invokes the objective valuation parameters of
Section 562, the Third Circuit acknowledged:
Subparagraph (v) specifies that repos include
credit enhancements, but such credit enhancements are “not to exceed the

7
damages in connection with any such
agreement or transaction, measured in
accordance with section 562 of this title.”
11 U.S.C. § 101(47)(A)(v) (emphasis added).
Pet. App. 16a.
Yet, in its effort to interpret the limiting language
of the statutory definition, the Third Circuit added
a word found nowhere in the statutory text—i.e., the
word “claimed”—the addition of which caused the
court to imply a condition found nowhere in the
statutory text—the filing of a deficiency claim by the
repo lender—without which the limitation would
become a nullity:
While the protections of § 559 are generally
available, the safe harbor does not encompass
a recovery beyond the “damages” claimed.
We therefore must define “damages” as found
in 11 U.S.C. § 101(47)(A)(v), to determine if
§ 562 applies to the nine SAI—each of which
is a credit enhancement.
Pet. App. 17a (emphasis added).
Accordingly, the Third Circuit interpreted the word
“damages” to require the filing of a deficiency claim
without which the limiting language of the statute
and the valuation parameters of § 562 would be
disregarded.
By adding the word “claimed,” the Third Circuit
altered the plain language of the statute. In doing so,
the Third Circuit’s decision failed to give effect to
Congress’s intent that credit enhancements be treated
differently and more restrictively than traditional
repos. Indeed, the court improperly read the limiting
language of subsection (v) out of the Code, emptying it

8
of meaning. See Loughrin v. United States, 573 U.S.
351, 358 (2014) (quoting Williams v. Taylor, 529 U.S.
362, 404 (2000)) (recognizing the “cardinal principle”
of statutory interpretation requiring courts to “give
effect, if possible, to every clause and word of a
statute”); Rosenberg v. XM Ventures, 274 F.3d 137, 141
(3d Cir. 2001) (“[W]hen interpreting a statute, courts
should endeavor to give meaning to every word which
Congress used and therefore should avoid an interpretation which renders an element of the language
superfluous.”).
Moreover, the notion that “damages” must be
“claimed” in a legal proceeding to constitute “damages”
in the context of the statutory scheme limiting credit
enhancement safe harbor is belied by the purpose
behind the statutory limitation itself. The “but not
to exceed the damages …” is plainly language of
limitation, the purpose of which is to protect the
creditors of the bankruptcy estate from excessive
liquidation of the bankruptcy debtor’s property and to
prevent repo lenders from obtaining windfalls such as
the $81 million reaped by Bear Stearns.
While the existence of damages is certainly an
element of a legal claim, the absence of a filed legal
claim says nothing about whether damages exist or
may be recoverable should a creditor pursue a claim.
In the context of 11 U.S.C. § 101(47)(A)(v), the statutory provision under review, the word “damages”
should have been interpreted as the damages to which
the repo lender potentially would have been entitled
should it have chosen to pursue its claim. See
Williams, 529 U.S. at 404; Rosenberg, 274 F.3d at 141.
In fact, the Third Circuit acknowledged this point:
“Although probably not obvious to the layperson, every
first-year law student learns to automatically connect

9
‘damages’ with what is potentially recoverable in
court, and not necessarily an underlying loss or
injury.” Pet. App. 17a (emphasis added).
As the non-defaulting party, the damages potentially recoverable by a repo lender should it choose to
pursue a claim—i.e., a deficiency claim—include the
unpaid portion of the repo debt (i.e., the “shortfall” or
“deficiency” in the payment of principal and interest),
plus collection-related expenses such as attorneys’
fees. That understanding of damages was endorsed by
the Third Circuit in In re Am. Home Mortg. Holdings,
Inc., 637 F.3d 246, 257 (3d Cir. 2011) (“Calyon”), which
involved a claim for damages by a repo lender under
Code Section 562 in connection with traditional repo
collateral in the form of whole mortgage loans. Id. at
248. While Calyon did not involve “credit enhancements” under 11 U.S.C. § 101(47)(A)(v), it did involve
a repo lender’s claim that the value of the repo
collateral was less than the balance of the repo debt,
thereby creating a shortfall. Id. at 249. In that context a repo lender’s potential “damages” equated to the
shortfall in repayment of the “debt” after valuing the
mortgage collateral.
A lender’s election to forgo filing of a claim does
not mean that it suffered no potentially recoverable
damages, it means simply that the lender elected to
forgo its claim. Consider that under the Third Circuit’s interpretation of the Bankruptcy Code, a lender
holding additional collateral worth substantially more
than the unpaid portion of its debt—such as Bear held
in this case—would be incentivized to keep the
collateral and forgo its claim to recover damages from
a bankruptcy estate that likely has little or no ability
to pay. While the Third Circuit recognized the
potential for such lender “bad behavior,” the court

10
then adopted a statutory interpretation that incentivized and immunized it:
HomeBanc does raise one concern about our
approach which we consider valid: interpreting “damages” to require a deficiency claim
may incentivize bad behavior. A non-defaulting party may seek to price the collateral at a
level equal to the debt owed by the defaulting
party, keeping any upside for itself and avoiding judicial scrutiny simply by not asserting a
deficiency claim.
Pet. App. 20a.
The Third Circuit decision converted a stay relief
limitation imposed upon repo lenders into a repo
lender option to keep credit enhancements and evade
bankruptcy safe harbor limitations by merely electing
to forgo a deficiency claim. It appears that the Third
Circuit reached the wrong result because it misperceived the objective of the statutory limitation
contained in § 101(47)(A)(v) while interpreting it.
While the clear purpose of the safe harbor limitation
is to preserve estate property for the benefit of all
estate creditors, the Third Circuit unnecessarily
adopted an interpretation that accomplished the
opposite—facilitating the repo lender’s effort to
“liquidate quickly”:
[D]efining “damages” as a “loss,” “shortfall,”
or “debt” would create a problematic process
for creditors seeking to quickly liquidated
collateral after a default. Under HomeBanc’s
proposed approach, a non-defaulting party
would first determine which collateral
constitutes a repurchase agreement under
§ 101(47)(A)(i) versus a credit enhancement

11
under § 101(47)(A)(v): repurchase agreements would receive the full protection of
§ 559 while credit enhancements would be
subject to the conditions of §§ 101(47)(A)(v)
and 562. Once the collateral was categorized,
a creditor could liquidate only the § 101(47)(A)(i)
repos. Afterwards, the non-defaulting party
would determine if there was any remaining
shortfall. If so, then the § 101(47)(A)(v) credit
enhancements could be sold, one at a time, to
fill the hole.
We consider HomeBanc’s approach impractical. Whether a transaction is a repurchase
agreement under § 101(47)(A)(i) or a credit
enhancement under § 101(47)(A)(v) is not
always clear cut—the parties in this case
litigated this issue for nearly a decade.
Creditors often seek to liquidate quickly, but
a need to differentiate between repos and
credit enhancements would substantially
slow this process. … Moreover, the need to
differentiate between repurchase agreements
and credit enhancements could eliminate the
ability to buy or sell collateral via “all or
nothing” bids.
Pet. App. 19a.1
1

While liquidity concerns informed the initial safe harbor from
the automatic stay for traditional repos (see Bevill, Bresler &
Schulman Asset Mgmt. Corp. v. Spencer Sav. & Loan Ass’n, 878
F.2d 742, 748 (3d Cir. 1989)), the carve-out for credit enhancements was created many years later, when Congress amended
the definition of “repurchase agreement” to include 11 U.S.C.
§ 101(47)(A)(v). See BANKRUPTCY ABUSE PREVENTION
AND CONSUMER PROTECTION ACT OF 2005, PL 109–8,
April 20, 2005, 119 Stat. 23.

12
Characterizing the “need to differentiate between
repurchase agreements and credit enhancements” as
“impractical” and creating “a problematic process for
creditors seeking to quickly liquidate collateral after
a default,” the Third Circuit decision nullifies the
safe harbor limitations and treats the safe harbor
protection accorded to credit enhancements as coextensive with the safe harbor protection accorded
to traditional repurchase agreements, the opposite
of what the Bankruptcy Code provides. In fact, that
which the court criticized as “impractical” and
“problematic” is exactly what Congress intended when
it limited the stay relief for credit enhancements—a
protection afforded to creditors of the bankruptcy
estate, not a means to grease the wheels of a repo
lender’s liquidation effort.2
The fact that repo parties may seek contractual
protection against lender “bad behavior” (see Pet. App.
20a) provides no comfort for a statutory interpretation
that eviscerates protections included for the benefit
of creditors. Unlike the parties to repo transactions,
creditors of a bankruptcy estate had no opportunity to
negotiate contractual protections in connection with
the bankruptcy debtor’s pre-petition repo financing.
Congress granted those protections in the Bankruptcy
Code itself, and courts nationwide should enforce
them.
Finally, the court’s observation that “if a creditor’s
loss is sufficiently large, it will seek damages, even if
doing so invites judicial scrutiny”, misses the point.
2

The elimination of “all or none” credit bids which lump
traditional repos with credit enhancements is not a “problem,”
rather, it is what Congress clearly intended when it provided
different safe harbor protection based on the type of collateral.

13
Pet. App. 20a. Bear did not file a deficiency claim
because it knew that the SAI would return multiples
of the relatively small deficiency. That is not what
Congress intended, and the Court should grant review
to consider this important question.3
CONCLUSION
The Court should grant the petition.
Respectfully submitted,
JOHN T. CARROLL, III
COZEN O’CONNOR
1201 N. Market St.
Suite 1001
Wilmington, DE 19801
(302) 295-2000

STEVEN M. COREN
Counsel of Record
KAUFMAN, COREN &
RESS, P.C.
2001 Market Street
Suite 3900
Two Commerce Square
Philadelphia, PA 19103
(215) 735-8700
scoren@kcr-law.com

Counsel for Petitioner
June 5, 2020

3

The liquidation of repo collateral must precede the filing of a
deficiency claim under the Bankruptcy Code, because until
collateral has been liquidated one cannot determine the existence
or extent of any deficiency. Since liquidation must precede filing
of a deficiency claim, it is clear error to interpret the scope of safe
harbor protection for credit enhancements based on a condition
which could not yet have occurred.

APPENDIX

1a
APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
No. 18-2887
————
In re: HOMEBANC MORTGAGE CORP., et al,
Debtors
WELLS FARGO, N.A., in its capacity
as Securities Administrator
v.
BEAR STEARNS & CO., INC.;
BEAR STEARNS INTERNATIONAL LIMITED;
HOMEBANC CORP.;
STRATEGIC MORTGAGE OPPORTUNITIES REIT, INC.
GEORGE L. MILLER, Chapter 7 Trustee for
the Estate of HomeBanc Corp.,
————

Appellant

On Appeal from the United States District Court
for the District of Delaware
Opinion Filed: December 24, 2019
District Court No. 1-17-cv-00797
District Judge: The Honorable Richard G. Andrews
Argued September 26, 2019
————
Before: SMITH, Chief Judge, McKEE, and PHIPPS,
Circuit Judges

2a
Francesca E. Brody
Sidley Austin
787 Seventh Avenue
New York, NY 10019
James O. Heyworth [ARGUED]
Sidley Austin
787 Seventh Avenue
New York, NY 10019
Andrew W. Stern
Sidley Austin
787 Seventh Avenue
New York, NY 10019
Counsel for Bear Stearns Co., Inc.
Bear Stearns International Ltd.
Strategic Mortgage Opportunities REIT, Inc.
John T. Carroll, III
Cozen O’Connor
1201 North Market Street
Suite 1001
Wilmington, DE 19801
Steven M. Coren
[ARGUED]
Kaufman Coren & Ress
2001 Market Street
Two Commerce Square, Suite 3900
Philadelphia, PA 19103
John W. Morris
Kaufman Coren & Ress
2001 Market Street
Two Commerce Square
Philadelphia, PA 19103
Counsel for George L. Miller, Chapter 7 Trustee forthe
Estate of HomeBanc Corp.

3a
OPINION
SMITH, Chief Judge.
This appeal revolves around the liquidation of
defaulted mortgage-backed securities that were subject to two repurchase agreements. Following multiple
rounds of litigation before the Bankruptcy and District
Courts, George E. Miller, Chapter 7 trustee for the
estate of HomeBanc Corp., seeks our review. On
appeal, we address these questions: (1) whether a
Bankruptcy Court’s determination of good faith regarding an obligatory post-default valuation of mortgagebacked securities subject to a repurchase agreement
receives plenary review as a question of law or clearerror review as a question of fact; (2) whether
“damages,” as described in 11 U.S.C. § 101(47)(A)(v),
requires a non-breaching party to bring a legal claim
for damages or merely experience a post-liquidation
loss for the conditions of 11 U.S.C. § 562 to apply;
(3) whether the safe harbor protections of 11 U.S.C.
§ 559 can apply to a non-breaching party that has no
excess proceeds after exercising the contractual right
to liquidate a repurchase agreement; and (4) whether
Bear Stearns liquidated the securities at issue in
compliance with the terms of the parties’ repurchase
agreements. Because we agree with the disposition of
the District Court, we will affirm.
I
HomeBanc Corp. (“HomeBanc”) was in the business
of originating, securitizing, and servicing residential
mortgage loans. From 2005 through 2007, HomeBanc
obtained financing from Bear Stearns & Co., Inc. and
Bear Stearns International Ltd. (jointly referred to as
“Bear Stearns”) pursuant to two repurchase agree-

4a
ments: a Master Repurchase Agreement (“MRA”)
dated September 19, 2005 and a Global Master
Repurchasing Agreement (“GMRA”) dated October 4,
2005.2 Transactions were accompanied by a confirmation that included the purchase date, purchase price,
repurchase date, and pricing rate. HomeBanc transferred to Bear Stearns multiple securities in June
2006, June 2007, and July 2007; however, nine of
the securities—the securities at issue (“SAI”)—were
accompanied by confirmations showing a purchase
price of zero and open repurchase dates.3
1

On Tuesday, August 7, 2007, HomeBanc’s repo
transactions became due, requiring HomeBanc to
buy back thirty-seven outstanding securities, including the nine SAI, at an aggregate price of approximately $64 million. Bear Stearns, concerned about
HomeBanc’s liquidity, offered to roll (extend) the
repurchase deadline for an immediate payment of
roughly $27 million. Bear Stearns alternatively
offered to purchase thirty-six of the securities outright
for approximately $60.5 million, but HomeBanc rejected this proposal. HomeBanc failed to repurchase
the securities or pay for an extension of the due date
by the close of business on August 7. The following
afternoon, Bear Stearns issued a notice of default
that gave HomeBanc until the close of business on
1

A repurchase agreement, typically referred to as a “repo,” is
“[a] short-term loan agreement by which one party sells a security
to another party but promises to buy back the security on a specified date at a specified price.” Repurchase Agreement, BLACK’S
LAW DICTIONARY (11th ed. 2019).
2

Bear Stearns held the nine securities at issue (“SAI”) in this
case under the GMRA.
3

An “open repurchase date” means that the security is payable on demand.

5a
Thursday, August 9, 2007, to make payment in full.
No funds were forthcoming. Consequently, Bear
Stearns sent formal default notices to HomeBanc on
August 9, 2007, and later that day, HomeBanc filed
voluntary petitions for relief under Chapter 11 of the
U.S. Bankruptcy Code.4
Upon HomeBanc’s default, the MRA and GMRA
required Bear Stearns to determine the value of the
thirty-seven remaining repo securities. This meant
that Bear Stearns, within its broad discretion, had to
reach a “reasonable opinion” regarding the securities’
“fair market value, having regard to such pricing
sources and methods . . . as [it] . . . consider[ed]
appropriate.” J.A. 1038.
Bear Stearns, claiming outright ownership of the
securities, decided to auction them to determine their
fair market value. Auction solicitations were distributed between the morning of Friday, August 10
and Tuesday, August 14, stating that Bear Stearns
intended to auction thirty-six of the securities on
August 14, 2017.5 The bid solicitations listed the available securities, including their unique CUSIP identifiers, original face values, and current factors.6 Bear
4

The bankruptcy was later converted to a Chapter 7 proceeding in February 2009.
5

One of the thirty-seven remaining securities was excluded
from the August 14, 2007 auction because J.P. Morgan had
agreed with HomeBanc to purchase the security for $1 million.
Ultimately, J.P. Morgan did not buy the security, and as a result,
it was subsequently auctioned on August 17, 2007. Bear Stearns’s
mortgage trading desk submitted the highest bid, purchasing the
security for $1,256,000.
6

A CUSIP is a nine-digit numeric or alphanumeric code that
identifies financial securities to facilitate clearing and settlement
of trades.

6a
Stearns’s finance desk sent the bid solicitation to
approximately 200 different entities, including investment banks and advisors, pension and hedge funds,
asset managers, and real estate investment trusts. In
some cases, multiple individuals within a single entity
were solicited. The finance desk also sought bids from
Bear Stearns’s mortgage trading desk, implementing
extra safeguards to prevent any insider advantage.
The auction yielded two bids. Tricadia Capital, LLC
submitted a bid of approximately $2.2 million for
two securities, and Bear Stearns’s mortgage trading
desk placed an “all or nothing” bid of $60.5 million, the
same amount Bear Stearns had offered before
HomeBanc’s default. After the auction closed, Bear
Stearns’s finance desk determined that Bear Stearns’s
mortgage trading desk had won. Bear Stearns allocated the bid across the thirty-six securities on August
15: $52.4 million to twenty-seven securities and $8.1
million divided evenly among the nine SAI ($900,000
apiece).
Despite its default and the results of the auction,
HomeBanc believed itself entitled to the August 2007
principal and interest payments from the thirty-seven
securities; Bear Stearns disagreed. Wells Fargo Bank,
administratively holding the securities, commenced
this adversary proceeding by filing an interpleader
complaint on October 25, 2007. HomeBanc and Bear
Stearns asserted cross-claims against each other.
After depositing the August 2007 payment with the
Bankruptcy Court, Wells Fargo was subsequently
dismissed from the proceedings. The cross-claims
between HomeBanc and Bear Stearns remained.

7a
A. HomeBanc I

7

After HomeBanc’s bankruptcy was converted to a
Chapter 7 proceeding, George Miller was appointed as
trustee for the estate. Miller brought several claims
against Bear Stearns, including (1) conversion (for
selling the SAI via auction when HomeBanc asserted
that it had superior title and interest), (2) violation of
the automatic bankruptcy stay (by auctioning the
SAI), and (3) breach of contract (for improperly valuing the SAI in violation of the GMRA).
With respect to these three claims, the Bankruptcy
Court granted Bear Stearns’s motion for summary
judgment. When a bankruptcy petition is filed, an
automatic stay halts any actions by creditors. 11
U.S.C. § 362. However, § 559 generally allows repo
participants to exercise a contractual right to liquidate
securities without judicial interference. 11 U.S.C.
§ 559. The Bankruptcy Court held that the transactions underlying the nine SAI constituted repurchase
agreements under 11 U.S.C. § 101(47)(A)(i) and (v),
bringing the SAI within the safe harbor protections of
§ 559. Thus, Bear Stearns had the right to liquidate
the securities: it did not violate the automatic bankruptcy stay or convert the securities. See J.A. 44-45
(“Bankruptcy Code § 559 permits liquidation of securities in accordance with a party’s contractual rights,
and the GMRA permits the Bear Stearns defendants
to act within their discretion” to sell the securities
upon default.).
The Bankruptcy Court also entered summary judgment against HomeBanc on the breach of contract
7

There are four decisions relevant to this appeal that the
parties denote as HomeBanc I, Home Banc II, HomeBanc III, and
HomeBanc IV. We make reference to those decisions in like
manner.

8a
claim. Interpreting the GMRA, which is governed by
English contract law, the Bankruptcy Court noted
that while the agreement required Bear Stearns to
rationally appraise the SAI in good faith, Bear Stearns
had sizeable discretion in coming to a fair market
valuation. Due to this broad discretion, the Court held
that there was no dispute of material fact as to
whether Bear Stearns complied with the GMRA since
using a bidding process to value securities was typical
practice in the industry at the time.
B. HomeBanc II
HomeBanc appealed to the District Court, arguing
that the Bankruptcy Court erred by (1) determining
that the transactions involving the SAI qualified
as repurchase agreements entitled to the safe harbor
protections of § 559; (2) interpreting the GMRA to
impose a nonexistent subjective rationality standard for Bear Stearns to value the securities upon
HomeBanc’s default; and (3) deciding that the sale of
the SAI was rational and in good faith.
The District Court affirmed on the first two issues
but remanded for further proceedings as to whether
Bear Stearns complied with the GMRA in good faith.
First, the District Court decided that the transactions
underlying the SAI did not qualify as repos under
§ 101(47)(A)(i) because the confirmations accompanying the transactions showed that the securities had
a purchase price of zero, allowing the SAI to “have
been transferred back . . . without being ‘against the
transfer of funds . . . .’”8 J.A. 59-60. Instead, they were

8

11 U.S.C. § 101(47)(A)(i), (v) (“The term ‘repurchase agreement’ (which definition also applies to a reverse repurchase
agreement)—(A) means—

9a
credit enhancements under § 101(47)(A)(v).9 “There is
no doubt that the disputed transactions were part and
parcel of their undisputed repo transactions. It therefore seems to me that the extra securities were plainly
within the umbrella of ‘credit enhancements.’” J.A. 60
(quoting 11 U.S.C. § 101(47)(A)(v)). While the nine SAI
were credit enhancements rather than traditional
repos,10 the District Court still held that they received
the protections of § 559.
As to HomeBanc’s second claim, the District Court
decided that the Bankruptcy Court correctly discerned
the relevant English law, finding that the GMRA’s
(i) an agreement . . . which provides for the transfer of
one or more . . . mortgage related securities . . . against
the transfer of funds . . . with a simultaneous
agreement by such transferee to transfer to the
transferor thereof . . . interests of the kind described in
this clause, at a date certain not later than 1 year after
such transfer or on demand, against the transfer of
funds . . . ;
(v) any security agreement or arrangement or other
credit enhancement related to any agreement or
transaction referred to in clause (i), (ii), (iii), or (iv) . . . .)
(emphasis added).
9

Although the Bankruptcy Code does not define “credit
enhancement,” the term encompasses various ways that a borrower may improve its credit standing and reassure lenders that
it will honor its debt obligations. See Credit Enhancement,
OXFORD DICTIONARY OF FINANCE AND BANKING (2014). Here, the
District Court held that HomeBanc engaged in “credit enhancement” by providing additional collateral to Bear Stearns with a
purchase price of zero. See Overcollateralization, THE PALGRAVE
MACMILLAN DICTIONARY OF FINANCE, INVESTMENT AND BANKING
(1st ed. 2010).
10

The District Court concluded that the other twenty-eight of
the thirty-seven securities were traditional repos under 11 U.S.C.
§ 101(47)(A)(i).

10a
“reasonable opinion” language equated to a “good
faith” requirement.
The Court, responding to HomeBanc’s last argument, held that the record created a fact question as
to whether Bear Stearns acted in good faith by
auctioning the SAI. Two concerns led to this decision.
First, only Bear Stearns submitted a bid that included
the nine SAI. J.A. 62 (“When . . . Bear Stearns was the
winning bidder because it was the only bidder, I think
that is indisputable evidence that the market was not
working, or that there was something else wrong with
the auction process.”). Second, the District Court
believed that the Bankruptcy Judge erroneously discounted the opinion of HomeBanc’s expert witness,
who stated that Bear Stearns designed the auction to
dissuade outside bidders. Because of these issues, the
case was remanded for further proceedings to determine if the auction complied with the GMRA.
C. HomeBanc III
Upon remand and after a six-day trial, the Bankruptcy Court ruled that the auction was fair and customary, and therefore, Bear Stearns acted in good
faith accepting the auction results as the fair market
value of the thirty-seven securities. In reaching this
holding, the Bankruptcy Court divided the question of
good faith compliance with the GMRA into “three
parts: (i) whether Bear Stearns’[s] decision to determine the Net Value of the Securities at Issue by
auction in August 2007 was rational or in good faith;
(ii) whether the auction process utilized by Bear
Stearns was in accordance with industry standards;
and (iii) whether Bear Stearns’[s] acceptance of the
value obtained through the auction was rational or in
good faith.” J.A. 76.

11a
The Court, in addressing the first sub-question,
concluded that Bear Stearns acted in good faith by
determining the securities’ value via an auction,
despite the turbulent condition of the residential
mortgage-backed securities market in August 2007.
HomeBanc argued that an auction cannot provide
accurate price discovery when a market is dysfunctional, and while HomeBanc presented testimony that
the residential mortgage-backed securities market
was non-functional in August 2007, there was substantial opposing testimony that the market, though
troubled, was functioning. “[T]here was [also] no
evidence of other factors that might be considered
indicia of market dysfunction: asymmetrical information between buyers and sellers, inadequate information in general . . . , market panic . . . , high
transaction costs, the absence of any creditworthy
market participants or fraud.” J.A. 86. Moreover,
“there was no indication . . . when or if market prices
would stabilize.” J.A. 85-87. It was therefore reasonable for Bear Stearns to quickly liquidate the collateral
via a sale. Because the Court found that the market
was functioning in August 2007, it concluded that the
auction was a commercially reasonable determinant of
value.
Bear Stearns’s auction process was also found to be
reasonable: the procedures provided possible bidders
with sufficient information to formulate a bid; the
4.5 days to place bids was more than what was
typically given to sophisticated purchasers of residential mortgage-backed securities; Bear Stearns solicited
many potential buyers, including its main competitors; and the rules prevented a Bear Stearns affiliate
from gaining an unfair advantage in formulating its
bid.

12a
Lastly, the Court held that Bear Stearns acted in
good faith when it accepted the outcome of the auction
as the fair market value of the SAI. HomeBanc
maintained that the auction results were egregious.
Using its own discounted cash flow model, HomeBanc
valued the nine SAI at $124.6 million. HomeBanc’s
Chief Investment Officer, however, estimated the
value of the SAI at approximately $18.5 million on
August 5, 2007—nine days before the auction closed—
a value much closer to Bear Stearns’s $8.1 million
assessment on August 15, 2017. The Bankruptcy
Court also highlighted that (1) HomeBanc tried and
failed to find an alternative purchaser who would pay
more for the thirty-seven securities, and (2) Bear
Stearns paid a higher price for the thirty-seventh
security than HomeBanc bargained for with J.P.
Morgan.
D. HomeBanc IV
HomeBanc appealed again, initially contending that
Bear Stearns did not act in good faith because the
auction was held in a non-functioning market, failed
to produce an actual sale, and resulted in an inexplicable valuation of the SAI. Finding that the Bankruptcy
Court’s good faith determination was one of historical
fact and not clearly erroneous, the District Court
upheld the judgment. The Court faulted HomeBanc for
failing to demonstrate that the mortgage-backed
securities market was dysfunctional in August 2007 or
that the auction was carried out in bad faith.
HomeBanc alternatively asserted that the Bankruptcy Court erred by ignoring the safe harbor
limits for credit enhancements under 11 U.S.C.
§ 101(47)(A)(v). Unlike the broad protections of § 559
that are available for § 101(47)(A)(i) repos, HomeBanc
believed that credit enhancements under § 101(47)(A)(v)

13a
receive fewer protections under § 562. “The extent to
which credit enhancements qualify as repurchase
agreements entitled to bankruptcy safe harbor protection is ‘not to exceed the damages in connection with
any such agreement or transaction,’” which must
be measured by “‘commercially reasonable determinants of value.’” J.A. 116-17 (quoting 11 U.S.C.
§§ 101(47)(A)(v), 562).
Based on the connection between §§ 101(47)(A)(v)
and 562, HomeBanc claimed that the Bankruptcy
Court failed to (1) recognize that Bear Stearns had
violated the automatic bankruptcy stay and converted
the securities, and (2) determine whether the auction
was a “commercially reasonable determinant” of the
securities’ value. The District Court disagreed, holding
that § 562 was inapplicable. Since Bear Stearns’s
liquidation of HomeBanc securities resulted in excess
proceeds and Bear Stearns never asserted a claim for
damages, the District Court reasoned that the broad
safe harbor protections of § 559, not § 562, were
relevant. HomeBanc timely appealed to this Court.
II
The Bankruptcy Court had jurisdiction over this
matter pursuant to 28 U.S.C. §§ 157 and 1334, and
the District Court exercised its jurisdiction under 28
U.S.C. § 158(a)(1). 28 U.S.C. § 158(d)(1) provides this
Court with jurisdiction to review the District Court’s
final order.
This Court’s “review of the [D]istrict [C]ourt’s decision effectively amounts to review of the [B]ankruptcy
[C]ourt’s opinion in the first instance.” In re Segal,
57 F.3d 342, 345 (3d Cir. 1995) (quoting In re Sharon
Steel Corp., 871 F.2d 1217, 1222 (3d Cir. 1989)
(internal quotation marks omitted)). We exercise

14a
plenary review of the Bankruptcy Court’s interpretation of the Bankruptcy Code and clear-error review of
its factual findings. See In re J & S Properties, LLC,
872 F.3d 138, 142 (3d Cir. 2017); In re Abbotts Dairies
of Pa., Inc., 788 F.2d 143, 147 (3d Cir. 1986).
The parties dispute the standard of review that
applies to the Bankruptcy Court’s determination of
good faith. HomeBanc asserts that a good faith determination constitutes a mixed question of law and fact
that is subject to clear-error review for the underlying
factual findings and plenary review for the Bankruptcy Court’s “choice and interpretation of legal
precepts and its application of those precepts to
historical facts.” In re Trans World Airlines, Inc.,
134 F.3d 188, 193 (3d Cir. 1998). Bear Stearns
responds that only clear-error review applies because
HomeBanc “sets forth ‘no choice and interpretation of
legal precepts’ of the Bankruptcy Court to which
plenary review would be appropriate.” Appellee Br. at
29 (quoting In re Montgomery Ward Holding Corp.,
242 B.R. 147, 152 (D. Del. 1999)).
As a general matter, this Court has long considered
the determination of good faith to be an “ultimate
fact.” Hickey v. Ritz-Carlton Rest. & Hotel Co. of
Atlantic City, 96 F.2d 748, 750-51 (3d Cir. 1938). An
ultimate fact is commonly expressed in a standard
enunciated by statute or by a caselaw rule, like
negligence or reasonableness, and “[t]he ultimate finding is a conclusion of law or at least a determination of
a mixed question of law and fact.” Universal Minerals
v. C.A. Hughes & Co., 669 F.2d 98, 102 (3d Cir. 1981).
Consequently, factual findings are reviewed for clearerror while “the trial court’s choice and interpretation
of legal precepts and its application of those precepts

15a
to the historical facts” receive plenary review. Id. at
103.
Despite these general precepts, determining the
applicable standard of review here is not so straightforward. We have previously held that whether a party
filed a Chapter 11 bankruptcy petition in good faith is
an ultimate fact subject to review as a mixed question
of law and fact. In re 15375 Memorial Corp. v. Bepco,
589 F.3d 605, 616 (3d Cir. 2009). Similarly, we have
concluded that whether a debtor is insolvent is an
ultimate fact requiring mixed review. See Trans World
Airlines, 134 F.3d at 193. Some District Courts, however, have held that good faith determinations under
§ 363(m) of the Bankruptcy Code receive clear-error
review. See In re Polaroid Corp., No. 03-1168-JJF,
2004 WL 2223301, at *2 (D. Del. Sept. 30, 2004); In re
Prosser, Bankr. L. Rep. 82, 437 (D.V.I. Mar. 8, 2013).
A determination of good faith necessarily flows from
consideration of an array of underlying basic facts,
making it an ultimate fact. See Universal Minerals,
669 F.2d at 102; Hickey, 96 F.2d at 750-51. Yet, the
distinction between basic and ultimate facts can be
murky; sometimes, there are intermediate steps on
the path to an ultimate fact. See In re 15375 Memorial
Corp., 589 F.3d at 616 (referring to basic, inferred, and
ultimate facts). This opacity gives us some pause, but
no intermediate steps are currently before us for
review. We therefore hold that a bankruptcy court’s
determination of good faith regarding a mandatory
post-default valuation of collateral subject to a repurchase agreement is an ultimate fact subject to mixed
review.11 A bankruptcy court’s basic factual findings
11

We do not (and need not) decide whether good faith is always
an ultimate fact requiring mixed review.

16a
are examined for clear-error while the ultimate fact of
good faith receives plenary review.
III
On appeal, HomeBanc challenges the District
Court’s decision that § 559, not § 562, was controlling
and that Bear Stearns did not violate the automatic
bankruptcy stay. Section 559 gives parties to a repurchase agreement a safe harbor from the automatic
bankruptcy stay, which normally prevents creditors
from collecting, recovering, or offsetting debts without
court approval.12 Thus, § 559 generally permits a nondefaulting party to liquidate collateral, according to
the terms of the relevant repurchase agreement, without seeking court approval. Section 562 also provides
a safe harbor, though it is more limited. For instance,
§ 562 requires that “damages” be measured at a
certain time and using a “commercially reasonable
determinant of value.” 11 U.S.C. § 562.
As to whether § 559 or § 562 applies here, the text
of § 101(47)(A)(v) is dispositive. Subparagraph (v)
specifies that repos include credit enhancements, but
such credit enhancements are “not to exceed the
damages in connection with any such agreement or
transaction, measured in accordance with section
562 of this title.” 11 U.S.C. § 101(47)(a)(v) (emphasis
12

Section 559 states in part: “The exercise of a contractual
right of a repo participant or financial participant to cause
the liquidation . . . of a repurchase agreement . . . shall not be
stayed, avoided, or otherwise limited by . . . order of a court or
administrative agency . . . [and] any excess of the market
prices received on liquidation of such assets . . . over the sum
of the stated repurchase prices and all expenses in connection
with the liquidation of such repurchase agreements shall be
deemed property of the estate . . . .” 11 U.S.C. § 559 (emphasis
added).

17a
added). While the protections of § 559 are generally
available, the safe harbor does not encompass a recovery beyond the “damages” claimed. We therefore must
define “damages,” as found in 11 U.S.C. § 101(47)(A)(v),
to determine if § 562 applies to the nine SAI—each of
which is a credit enhancement.
HomeBanc asks this Court to interpret “damages”
as meaning a “shortfall,” “loss,” “deficiency,” or “debt.”
This would mean that when a repo participant liquidates a credit enhancement after default, any amount
obtained in excess of the actual deficiency suffered, as
measured according to § 562, is subject to the automatic bankruptcy stay, even if the surplus took years
to develop. Conversely, Bear Stearns argues that if
there is no claim for damages, then § 562 is inapplicable: The definition of “damages” must include a legal
claim.
“Damages” is not defined within Title 11, but we
hold for several reasons that the term refers to a legal
claim for damages rather than a “loss,” “shortfall,”
“deficiency,” or “debt.” First, “damages” is a term of
art. Although probably not obvious to the layperson,
every first-year law student learns to automatically
connect “damages” with what is potentially recoverable in court, and not necessarily an underlying loss or
injury.13 Damages are “[m]oney claimed by, or ordered
to be paid to, a person as compensation for loss or
injury.” Damages, BLACK’S LAW DICTIONARY (11th ed.
2019); 1 DAN B. DOBBS, DOBBS LAW OF REMEDIES:
13

At oral argument, counsel for HomeBanc inadvertently
showed how “damages” are inextricably tied to a legal claim. He
stated, “I think the damages are the - the recovery to which you
may be entitled, if you prove some liability.” Transcript of Oral
Argument at 14, In re HomeBanc Mortgage Corp. (3d Cir. Sept.
26, 2019) (No. 19-2887).

18a
DAMAGES-EQUITY-RESTITUTION § 3.1 (2d ed. 1993)
(“The damages remedy is a judicial award in money,
payable as compensation to one who has suffered a
legally recognized injury or harm.”). This is a plain
term, and as a result, defining “damages” as a “debt”
or “loss” without any associated legal claim would
contradict common understanding within the legal
profession.
Second, “[C]ourts must presume that a legislature
says in a statute what it means and means in a statute
what it says there.” Am. Home Mortg., 637 F.3d at 255
(internal quotation marks and citations omitted). If
Congress had wanted to define “damages” in a manner
different from its commonly understood meaning,
such as a “loss,” “deficiency,” or “debt,” it could have
done so. These terms appear elsewhere in Title 11, yet
Congress chose not to employ them here. See, e.g.,
11 U.S.C. §§ 703(b), 726(a)(4), 727(a)(12)(B).
Third, other parts of Title 11 support a plain legal
interpretation of “damages.” “Damages” is used throughout Title 11 to refer to a legal claim. See, e.g., 11 U.S.C.
§§ 110(h)(5)(i)(1)(A)-(i)(2), 362 (k)(1)-(2), 523 (a)(19)(B)(iii).
Moreover, the text of § 502(g)(2) and the section title
of § 562 suggest that “damages” means a legal claim
for loss.14
Fourth, defining “damages” as a “loss,” “shortfall,”
or “debt” would create a problematic process for
creditors seeking to quickly liquidate collateral after a
default. Under HomeBanc’s proposed approach, a non14

See 11 U.S.C. § 502(g)(2) (“A claim for damages calculated
in accordance with section 562 . . . .”); 11 U.S.C. § 562 (“Timing of
damage measurement in connection with swap agreements, securities contracts, forward contracts, commodity contracts, repurchase agreements, and master netting agreements”).

19a
defaulting party would first determine which collateral constitutes a repurchase agreement under
§ 101(47)(A)(i) versus a credit enhancement under
§ 101(47)(A)(v): repurchase agreements would receive
the full protection of § 559 while credit enhancements
would be subject to the conditions of §§ 101(47)(A)(v)
and 562. Once the collateral was categorized, a creditor could liquidate only the § 101(47)(A)(i) repos.
Afterwards, the non-defaulting party would determine
if there was any remaining shortfall. If so, then the
§ 101(47)(A)(v) credit enhancements could be sold, one
at a time, to fill the hole.
We consider HomeBanc’s approach impractical.
Whether a transaction is a repurchase agreement
under § 101(47)(A)(i) or a credit enhancement under
§ 101(47)(A)(v) is not always clear cut—the parties in
this case litigated this issue for almost a decade.
Creditors often seek to liquidate quickly, but a need to
differentiate between repos and credit enhancements
would substantially slow this process. It is also likely
that repo participants would litigate this issue because of the potential application of §§ 101(47)(A)(v)
and 562. Moreover, the need to differentiate between
repurchase agreements and credit enhancements could
eliminate the ability to buy or sell collateral via “all or
nothing” bids. Bear Stearns, in this case, would have
had to conduct multiple separate auctions: an initial
auction to value the twenty-eight traditional repos
and subsequent auctions to individually value the
nine credit enhancements to cover any shortfall. Bear
Stearns could not have made an “all or nothing” bid for
the remaining securities. Such an approach is unduly
cumbersome. The literal application of the statute, in
contrast, does not produce “an absurd result.” See
Douglass v. Convergent Outsourcing, 765 F.3d 299,
302 (3d Cir. 2014).

20a
HomeBanc does raise one concern about our
approach which we consider valid: interpreting “damages” to require a deficiency claim may incentivize bad
behavior. A non-defaulting party may seek to price the
collateral at a level equal to the debt owed by the
defaulting party, keeping any upside for itself and
avoiding judicial scrutiny simply by not asserting a
deficiency claim. The nature of repos, however, provides parties with the opportunity to address this
issue contractually. For example, the GMRA requires
a good faith valuation, and other agreements could do
likewise. Furthermore, if a creditor’s loss is sufficiently large, it will seek damages, even if doing so
invites judicial scrutiny. Because of the aforementioned reasons, we hold that “damages” as described in
§ 101(47)(A)(v) necessitates the filing of a deficiency
claim.
IV
Though § 562 is inapplicable because Bear Stearns
did not initiate a damages action, it appears that the
auction did not yield excess proceeds. As this Court
has explained, excess proceeds result when “the market prices exceed the stated repurchase prices.” Am.
Home Mortg., 637 F.3d at 255-56. At the time of
HomeBanc’s default, the contractual repurchase price
for the thirty-seven securities was approximately $64
million, but the auction netted only $61.756 million.
That is a shortfall, not an excess.
Notwithstanding the lack of excess proceeds, we
conclude that the Bankruptcy Court appropriately
applied § 559. Most importantly, the text of § 559 does
not require excess proceeds:
The exercise of a contractual right of a
repo participant or financial participant

21a
to cause the liquidation . . . a repurchase
agreement . . . shall not be stayed, avoided,
or otherwise limited by operation of any
provision of this title or by order of a court or
administrative agency . . . . In the event that
a repo participant or financial participant
liquidates one or more repurchase agreements . . . and under the terms of one or more
such agreements has agreed to deliver assets
subject to repurchase agreements to the
debtor, any excess of the market prices
received on liquidation of such assets . . .
over the sum of the stated repurchase prices
and all expenses in connection with the
liquidation of such repurchase agreements
shall be deemed property of the estate . . . .
11 U.S.C. § 559 (emphasis added). Section 559 states
that “any excess . . . shall be deemed property of the
estate.” It does not say “the excess.” “Any” is commonly
used to refer to indefinite or unknown quantities.15 For
instance, is there any money left in the bank account?
In § 559, the indefinite or unknown quantity is the
excess. There may be an excess, but the text does not
demand that one exists. Rather, it establishes a
condition—transferring the property to the estate—if
there are excess proceeds. The text reveals that § 559
can apply when there is an excess, shortfall, or breakeven amount.
We recognize that in American Home Mortgage we
stated that “[s]ections 559 and 562 address different
15

See Any, MERRIAM-WEBSTER DICTIONARY, https://www.merr
iam-webster.com/dictionary/any#learn-more; Any, OXFORD ENGLISH
DICTIONARY, https://www.oed.com/view/Entry/8973?redirected
From=any#eid.

22a
situations. Section 559 applies only in the event that
a . . . liquidation results in excess proceeds. . . . § 562 . . .
applies when the contract is liquidated, terminated,
or accelerated, and results in damages rather than
excess proceeds.” 637 F.3d at 255-56 (emphasis added).
Taken out of context, this dictum could be wrongly
interpreted to suggest that § 559’s authorization of a
repo participant to liquidate collateral applies “only” if
the liquidation results in excess proceeds. This Court
used the word “only” to contrast the ordinary division
between § 559 with § 562, not to create a binding
either/or proposition. Am. Home Mortg., 637 F.3d at
255-56. Judge Rendell’s concurrence implicitly supports this narrow comparative interpretation, stating
that a liquidation of a repurchase agreement is exempt
from automatic stay provisions, making no mention of
whether an excess is necessary for the protections of
§ 559. Id. at 258 (Rendell, J., concurring). Our reading
avoids any conflict with the plain text of § 559. Furthermore, the case before us involves a “loss” or
“shortfall” without a claim for “damages,” presenting
unique circumstances not addressed in American
Home Mortgage.
The few cases and treatises that explore this issue
show that a repo participant can liquidate a repurchase agreement regardless of whether the sale
results in an excess, shortfall, or a break-even amount.
See Matter of Bevill, Bresler & Schulman Asset Mgmt.
Corp., 67 B.R. 557, 596 (D.N.J. 1986) (“Any proceeds
from the sale of the securities in excess of the agreed
repurchase price are deemed property of the estate.”);
In re TMST, Inc., No. 09-17787-DK, 2014 WL 6390312,
at *4 (Bankr. D. Md. Nov. 14, 2014) (“Concomitant to
those rights granted to the repurchase creditor to
liquidate with finality the pledged securities, in
Sections 559 and 562 Congress vouchsafed to the

23a
bankruptcy estate the right to any excess market
value of such securities.”); 5 COLLIER ON BANKRUPTCY
§ 559.04 (16th ed. 2019) (“Section 559 specifies, however, that any excess proceeds or value remaining
after the nondefaulting party has recovered the
amounts owed to it by the debtor must be paid to the
debtor . . . .”); 1 JOAN N. FEENEY ET AL., BANKRUPTCY
LAW MANUAL § 7:19 (5th ed. 2019) (a repo “participant
is free to offset or net out any termination value . . . .”);
4 WILLIAM L. NORTON, JR. AND WILLIAM L. NORTON, III,
NORTON BANKRUPTCY LAW AND PRACTICE § 75:4 (3d ed.
2019) (“Code § 559 also contains a provision dealing
with excess proceeds in the event that a repo participant liquidates . . . and the repo participant has agreed
to deliver any surplus assets to the debtor. In this
event, any excess . . . shall be deemed property of the
estate . . . .”). Although the auction yielded no excess
proceeds, the protections of § 559 were appropriately
applied.
V
Section 559 generally provides an exemption from
the automatic bankruptcy stay to the extent that a
liquidation accords with the relevant repurchase
agreement. Thus, Bear Stearns’s safe harbor is contingent on its adherence to the GMRA—upon default, to
honestly and rationally value the remaining securities
for purposes of crediting HomeBanc’s debt. The Bankruptcy Court held that Bear Stearns valued the SAI in
good faith compliance with the GMRA, but HomeBanc
claims otherwise.16 We exercise plenary review over

16

On appeal, neither party contests the Bankruptcy Court’s
conclusion that the GMRA includes a “good faith” standard: Bear
Stearns was required to act in “good faith” when determining the

24a
this determination of good faith and agree with the
Bankruptcy Court that Bear Stearns complied with
the GMRA.
First, HomeBanc contends that the auction did not
provide the fair market value of the SAI because a sale
never occurred. Bear Stearns simply shifted the SAI
from the finance desk to the mortgage trading desk
and made an internal accounting adjustment. The
GMRA required that Bear Stearns reach a “reasonable
opinion” regarding the securities’ “fair market value,
having regard to such pricing sources and methods . . .
as . . . [it] consider[ed] appropriate.” J.A. 1038. There
was no clause that required Bear Stearns to sell the
securities to an outside party. Moreover, whether an
exchange of funds occurred is immaterial to establishing the securities’ fair market value.17
HomeBanc also asserts that Bear Stearns acted in
bad faith because it knew or should have known that,
given the dysfunctional market for mortgage-backed
securities in August 2007, an auction would not identify the fair market value of the SAI.18 HomeBanc
fair market value of the securities at issue. The parties dispute
whether Bear Stearns’s actions met that standard.
17

A discount cash flow model, for example, is another way to
determine fair market value without an actual “sale.”
18

The parties have invoked the term “market dysfunction.”
Neither the briefs nor oral argument provided substantial insight
into this term and its meaning. Although there seems to be no
accepted definition, dysfunction likely includes low liquidity and
enough instability in a market such that the routine price
discovery process is not functioning properly.
Whether the securities market in August 2007 was dysfunctional is a significant question because it bears on whether Bear
Stearns rationally valued the securities using an auction. In
American Home Mortgage, this Court endorsed the view that “the

25a
highlights, among other things, that (1) several witnesses testified that the mortgage-backed securities
market was in “turmoil” and “dysfunctional” in August
2007,19 (2) Bear Stearns’s American Home Mortgage
auction, a week prior, failed to produce an outside
bidder, and (3) Bear Stearns reduced its internal
valuation of the thirty-seven securities from roughly
$119 million on Friday, August 3, 2007 to approximately $68 million on Monday, August 6, 2007.
Despite this evidence, the Bankruptcy Court was
correct in determining that there was good faith where
the market for mortgage-backed securities was sufficiently functional to conduct an auction that complied
with the GMRA. A Bear Stearns employee, an economic consultant, and an outside executive familiar
with the repurchase market all testified that the market was turbulent but not dysfunctional. The record
also contains substantial additional testimony to support this characterization: other traders of mortgagebacked securities stated that transactions were occurring in the summer of 2007. There is also little
evidence indicative of market dysfunction, such as
potential buyers lacking sufficient information to price
securities and the absence of any creditworthy market
participants. Here, HomeBanc mistakenly equates a
market price should be used to determine an asset’s value when
the market is functioning properly. It is only when the market is
dysfunctional and the market price does not reflect an asset’s
worth should one turn to other determinants of value.” 637 F.3d
at 257.
19

A Bear Stearns securities trader testified that the market
was “dysfunctional” with “little to no liquidity,” and a former Bear
Stearns senior managing director testified that “we knew it was
a bad market” and that the market was “illiquid.” J.A. 870, 899,
1007-09.

26a
declining market with a dysfunctional one. The residual mortgage-backed securities market was functioning adequately for Bear Stearns, in good faith, to value
the SAI via an auction.
Alternatively, HomeBanc argues that the auction
procedures were flawed, rendering the sale price
inaccurate. One academic witness testified that the
information supplied to potential bidders was inadequate, the time given to submit a bid unreasonably
short, and the bidding rules intentionally designed to
frighten away outside interest. This contrasted with
the testimony of several securities traders who opined
that the information provided in Bear Stearns’s bid
solicitation was sufficient to value the securities, the
auction provided adequate time to formulate a bid, and
the bidding rules were attractive rather than offputting. Bear Stearns’s solicitation reached many
potential buyers, including several of its competitors.
Additionally, the auction rules were designed to
prevent Bear Stearns’s mortgage trading desk from
obtaining any objectionable advantage—(1) Bear
Stearns affiliates had to submit their bids thirty
minutes before the deadline for outside bids, and
(2) Bear Stearns’s legal department, which was
located in a separate building from the mortgage
trading desk, collected all the bids. We will not disturb
the Bankruptcy Court’s finding that the auction
process followed proper industry practices.
HomeBanc also maintains that Bear Stearns did not
value the SAI in good faith compliance with the GMRA
because the post-auction value assigned to each of the
nine SAI, $900,000 a piece, was arbitrary—Bear
Stearns never justified why it valued each security
at $900,000. The SAI were diverse, having different
collateral and cash flow rules, and Bear Stearns

27a
valued each differently weeks before the auction.
Thus, HomeBanc insinuates that the allocated
amount had no relationship to what the securities
were actually worth. “[T]he $900,00 ‘price’ is simply
what remained of Bear Stearns’s total bid after
subtracting the unchallenged valuations attributed to
the 27 securities not at issue, neatly divided across the
securities at issue.” J.A. at 38-39.
The GMRA required a rational, good faith determination of the fair market value of the securities, and
this requirement could be met by a reasonable all-ornothing bid for the securities. A buyer may allocate the
winning bid in a variety of ways, but the defaulting
party’s debt is always credited the same amount: no
matter how Bear Stearns divided its bid of $60.5
million, HomeBanc’s debt only decreased by that lump
sum amount. We see no need to address this argument
further since the post-auction allocation to individual
securities says little about whether the all-or-nothing
bid constituted a fair market valuation.
In spite of HomeBanc’s attempts to show otherwise,
Bear Stearns acted in good faith compliance with the
GMRA: the market conditions were adequate to
ascertain fair market value via an auction, and the
auction procedures were adequate. Consequently,
Bear Stearns rationally accepted the auction results
as providing the fair market value of the remaining
thirty-seven securities. Bear Stearns was obligated to
follow the GMRA, and it did so.
VI
In conclusion, we hold that (1) a Bankruptcy Court’s
determination of good faith regarding an obligatory
post-default valuation of collateral subject to a
repurchase agreement receives mixed review. Factual

28a
findings are reviewed for clear-error while the
ultimate issue of good faith receives plenary review;
(2) 11 U.S.C. § 101(47)(A)(v) “damages,” which may
trigger the requirements of § 562, require a nonbreaching party to bring a legal claim for damages;
(3) the safe harbor protections of 11 U.S.C. § 559 can
apply to a non-breaching party that has no excess
proceeds; and (4) Bear Stearns liquidated the
securities at issue in good faith compliance with the
GMRA. Thus, we will affirm the judgment.

29a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
No. 18-2887
————
In re: HOMEBANC MORTGAGE CORP., et al,
Debtors
WELLS FARGO, N.A., in its capacity
as Securities Administrator
v.
BEAR STEARNS & CO., INC.;
BEAR STEARNS INTERNATIONAL LIMITED;
HOMEBANC CORP.;
STRATEGIC MORTGAGE OPPORTUNITIES REIT, INC.
GEORGE L. MILLER, Chapter 7 Trustee for the
Estate of HomeBanc Corp.,
Appellant
————
(D.C. Civ. No. 1-17-cv-00797)
————
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, AMBRO,
JORDAN, SHWARTZ, KRAUSE, RESTREPO,
BIBAS, PORTER, MATEY, and PHIPPS, Circuit
Judges
The petition for rehearing filed by appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court

30a
and to all the other available circuit judges of the
circuit in regular active service, and no judge who concurred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for rehearing by the panel and the Court en banc, is denied.
BY THE COURT,
s/ D. Brooks Smith
Chief Judge
Dated: January 24, 2020
JK/cc: All Counsel of Record

31a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
No. 18-2887
————
In re: HOMEBANC MORTGAGE CORP., et al,
Debtors
WELLS FARGO, N.A., in its capacity as
Securities Administrator
v.
BEAR STEARNS & CO., INC.;
BEAR STEARNS INTERNATIONAL LIMITED;
HOMEBANC CORP.;
STRATEGIC MORTGAGE OPPORTUNITIES REIT, INC.
GEORGE L. MILLER, Chapter 7 Trustee
for the Estate of HomeBanc Corp.,
Appellant
————
On Appeal from the United States
District Court for the District of Delaware
District Court No. 1-17-cv-00797
District Judge: The Honorable Richard G. Andrews
Argued September 26, 2019
Before: SMITH, Chief Judge,
McKEE, and PHIPPS, Circuit Judges
————

32a
JUDGMENT
This cause came on to be considered on the record
from the United States District Court for the District
of Delaware and was argued on September 26, 2019.
On consideration whereof, it is now hereby
ADJUDGED and ORDERED that the judgment of the
District Court entered August 15, 2018, be and the
same is hereby AFFIRMED. All of the above in
accordance with the opinion of this Court. Costs taxed
to Appellant.
Attest:
s/ Patricia S. Dodszuweit
Clerk
DATED: December 24, 2019
Costs taxed in favor of Appellees Bear Stearns Co Inc,
Bear Stearns International Ltd and Strategic Mortgage Opportunities Reit Inc.as follows:
Brief

$547.88

Appendix

$184.05

TOTAL

$758.93
[SEAL]
Certified as a true copy and issues
in lieu of a formal mandate on
02/03/2020
Testee: /s/ Patricia S. Dodszuweit
Clerk, U.S. Court of Appeals
for the Third Circuit

33a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
Civil Action Nos. 17-797-RGA
Bankruptcy Case No. 07-11079-KJC
Adv. No. 07-51740-KJC
BAP No. 17-24
————
In re: HOMEBANC MORTGAGE CORP., et al.
Debtors
GEORGE L. MILLER, CHAPTER 7 TRUSTEE
FOR THE ESTATE OF HOMEBANC CORP.,
Appellant,
v.
BEAR STEARNS & CO., INC.,
BEAR STEARNS INTERNATIONAL LIMITED, AND
STRATEGIC MORTGAGE OPPORTUNITIES REIT, INC.
Appellees.
————
August 14, 2018
————
John T. Carroll, Barry M. Klayman, COZEN
O’CONNOR, Wilmington, DE; Steven M. Coren
(argued), David M. DeVito, KAUFMAN, COZEN &
RESS, P.C., Philadelphia, PA.
Attorneys for Appellant.

34a
William P. Bowden, Karen B. Skomorucha Owens,
ASHBY & GEDDES, P.A., Wilmington, DE; Andrew
W. Stem (argued), James 0. Heyworth, Francesca E.
Brody, SIDLEY AUSTIN LLP, New York, NY.
Attorneys for Appellees.
————
MEMORANDUM OPINION
ANDREWS, U.S. District Judge:
This is an appeal from the Bankruptcy Court’s June
14, 2017 final judgment. (D.I. 30-2 at A512). The
appeal is fully briefed. (D.I. 29; D.I. 31; D.T. 34). I held
oral argument on June 22, 2018. (D.I. 40 (“Tr.”)). After
oral argument, I ordered the parties to produce letter
briefs. (D.I. 38; D.I. 39). For the reasons set forth
below, the Bankruptcy Court’s judgment is AFFIRMED.
I. BACKGROUND
The parties’ dispute arises in connection with an
auction of securities owned by HomeBanc Corporation
(“HomeBanc”), which was conducted by Appellees
Bear, Stearns & Co., Inc., Bear Stearns International
Limited, and Strategic Mortgage Opportunities REIT,
Inc. (collectively, “Bear”). Between October 2005 and
August 2007, Bear lent money to HomeBanc in a
number of repo transactions made pursuant to a
Global Master Repurchase Agreement (“GMRA”).1
Each individual transaction made pursuant to the
GMRA was accompanied by a confirmation which
identified the purchase date, the purchase price, the
1

A repurchase agreement, or repo, is a transaction whereby
one party transfers a security to another in exchange for funds
along with a simultaneous agreement by the transferee to give
back the security upon repayment of the funds.

35a
repurchase date, and the pricing rate. Between 2005
and 2007, HomeBanc obtained approximately $200
million from Bear through numerous repo transactions.
This litigation involves nine Securities at Issue
(“SAI”), which Bear obtained in three sets of transactions that took place in June 2006, June 2007, and
July 2007. Each of the SAI was transferred to Bear
along with other securities, and the confirmation corresponding to each of the SAI showed a purchase price
of zero and open repurchase dates. HomeBanc’s repos
became due on August 7, 2007, at which point Bear
offered to extend the repos if HomeBanc reduced its
outstanding debt by making a payment of approximately $27 million. HomeBanc did not make the
payment. On August 9, 2007, Bear issued formal
notices of default. That night, HomeBanc filed chapter
11 bankruptcy petitions. The bankruptcy was later
converted to a chapter 7 proceeding.
On the morning of August 10, 2007, Bear distributed
auction solicitations, also known as bid lists, for the
securities on repo under the GMRA, including the nine
SAL The bid lists were sent to approximately 200
investors, with bids due on August 14, 2007. In addition to soliciting outside bids, the Bear repo finance
desk solicited bids from the Bear mortgage trading
desk. To ensure that Bear affiliates were not at an
advantage, any bids from an affiliate were required to
be submitted 30 minutes prior to the close of the
auction. The repo finance desk received only two bids,
an all or nothing bid of $60.5 million from the Bear
mortgage trading desk, and a bid of $2.19 million by
Tricadia Capital for two individual securities, neither
of which is among the nine SAL The securities were
sold to the Bear mortgage trading desk.

36a
The Bankruptcy Court granted summary judgment
in Bear’s favor, holding that the SAI were subject
to “repurchase agreements” under the Bankruptcy
Code. In re HomeBanc Mortg. Corp., 2013 WL 211180
(Bankr. D. Del. Jan. 18, 2013) (D.I. 30-1 at A313-64).
More specifically, the Bankruptcy Court found that
the repo transactions qualified as “repurchase agreements” under 11 U. S. C. § 101(47)(A)(i), having been
transferred “against the transfer of funds.” (Id at
A333). The Bankruptcy Court alternatively held that
even if the transactions did not qualify under
§ 101(47)(A)(i), they qualified under § 101(47)(A)(v),
the catchall provision. (Id. at A334). Having established that the transactions were “repurchase agreements” under the Bankruptcy Code, the Bankruptcy
Court found that Bear’s exercise of its contractual
right to sell the SAI was entitled to the safe harbor
protection of § 559 of the Bankruptcy Code.2 (Id.
at A316). The Bankruptcy Court then considered
whether Bear’s auction of the SAI complied with the
terms of GMRA. (Id. at A358). Because the GMRA
gave discretion to the non-defaulting party, the
Bankruptcy Court concluded that the only real
question was whether the timing and manner of the
auction was in good faith, given the prevailing market
conditions. (Id). The Bankruptcy Court held that there
existed no disputed fact as to whether the auction was
in good faith and in accordance with industry practice,
and granted summary judgment for Bear. (Id).
On appeal, I affirmed in part and reversed in part.
In re HomeBanc Mortg. Corp., 2014 WL 1268677
(D. Del. Mar. 27, 2014) (D.I. 30-1 at A365-77). In
2

Section 559 prevents a court from staying, avoiding, or
otherwise limiting the exercise of the contractual rights of a repo
participant. See 11 U.S.C. § 559.

37a
relevant part, I held that the SAI were not transferred
“against the transfer of funds,” and therefore did
not meet the definition of “repurchase agreements” in
§ 101(47)(A)(i). (D.I. 30-1 at A372). Rather, I held that
the SAI were “credit enhancements,” which qualified
as “repurchase agreements” under § 101(47)(A)(v), the
catchall provision. (Id. at A373). I remanded the case
for the Bankruptcy Court to determine “whether the
auction complied with the GMRA.” (Id. at A376).
In doing so, I affirmed that the GMRA gave Bear “a
certain amount of discretion in what to do with the
disputed securities once HomeBanc had declared
bankruptcy,” cabined by good faith and rationality.
(Id. at A373-75).
On remand, after a six-day trial, the Bankruptcy
Court found that Bear’s “auction of [HomeBanc] repurchase agreement collateral in August 2007 was
rational, in good faith and in compliance with the
[GMRA].” (Id. at A376; D.I. 30-2 at A471).
The Chapter 7 trustee of HomeBanc, George L. Miller
(the “Trustee”), appealed the Bankruptcy Court’s decision on June 21, 2017. (D.I. 1).
II. LEGAL STANDARD
The Court has jurisdiction to hear an appeal from a
final judgment of the Bankruptcy Court pursuant to
28 U.S.C. § 158(a)(1). In undertaking a review of the
issues on appeal, the Court applies a clearly erroneous
standard to the Bankruptcy Court’s findings of fact
and a plenary standard to its legal conclusions. See
Am. Flint Glass Workers Union v. Anchor Resolution
Corp., 197 F.3d 76, 80 (3d Cir. 1999). With mixed
questions of law and fact, the Court must accept the
Bankruptcy Court’s finding of “historical or narrative
facts unless clearly erroneous, but exercise[s] ‘plenary

38a
review of the trial court’s choice and interpretation of
legal precepts and its application of those precepts
to the historical facts.” Mellon Bank NA. v. Metro
Commc’ns, Inc., 945 F.2d 635, 642 (3d Cir. 1991) (citing Universal Minerals, Inc. v. C.A. Hughes & Co., 669
F.2d 98, 101-02 (3d Cir. 1981)). In other words, this
Court reviews a decision of the Bankruptcy Court just
the same as the Third Circuit usually reviews judgments of this Court. Should there be an appeal of this
decision to the Third Circuit, the standard by which
this Court reviews the Bankruptcy Court will be the
same standard the Court of Appeals will use.
III. DISCUSSION
The Trustee challenges the Bankruptcy Court’s final
judgment in favor of Bear on two grounds. First, the
Trustee argues, “The Bankruptcy Court erred in finding that Bear acted reasonably because the auction it
used to value the SAI—held in a market that was not
functioning properly—failed to produce an actual
sale[,] and its valuation lacked an explicable, rational
basis.” (D.I. 29 at 6) (heading capitalization removed).
Second, the Trustee argues, “[T]he Bankruptcy Court
erred by refusing the consider the limitations and
valuation parameters specifically applicable to credit
enhancements.” (D.I. 29 at 18; D.I. 38) (heading capitalization removed).
A. Rationality and Good Faith
The Trustee argues that the Bankruptcy Court’s
finding that “auction of repurchase agreement collateral in August 2007 was rational, in good faith and in
compliance with the [GMRA]” constitutes error. (D.I.
29 at 6 (citing D.I. 30-2 at A471)). The Trustee also
argues that the Bankruptcy Court’s finding that the
market for HomeBanc securities was not “dysfunc-

39a
tional” because it was “open for business” constitutes
error. (D.I. 29 at 5 (citing D.I. 30-1 at A490-91)).
The Trustee argues that the “trial court’s findings
on the ultimate questions of reasonableness, rationality and good faith” are “conclusion[s] of law or at
least . . . determination[s] of . . . mixed question[s] of
law and fact.” (D.I. 34 at 1 (citing In re 15375 Mem’l
Corp. v. Bepco, L.P., 589 F.3d 605, 616 (3d Cir. 2009)).
Therefore, argues the Trustee, the Bankruptcy Court’s
findings of rationality and good faith are “subject to
plenary review” as “essentially, . . . conclusion[s] of
law.” (Id.).
Bear, on the other hand, argues that the “issue presents a purely factual question subject to a deferential
‘clear error’ standard.” (D.I. 31 at 1 (citing DiFederico
v. Rolm Co., 201 F.3d 200, 208 (3d Cir. 2000); In re
Polaroid Corp., 2004 WL 2223301, at *2 (D. Del. Sept.
30, 2004) (holding that the bankruptcy court’s finding
that asset sale conducted in good faith, by “rigorous
auction process,” was subject to clear error review))).
I agree with Bear, as to the applicable standard. The
Bankruptcy Court saw and heard the witnesses
testify, and concluded that Bear acted rationally and
in good faith. As such, “good faith” is a historical fact.
The Bankruptcy Court’s factual determination of
rationality and good faith is subject to clear error
review.3

3

Bear argues, “[The Trustee tacitly acknowledges that the
Bankruptcy Court’s determinations of the facts surrounding the
auction and the lack of market dysfunction, as well as the finding
that the auction was in good faith, rational, and in compliance
with the GMRA., are subject to clear error review.” (D.I. 31 at 1
n.2 (citing D.I. 29 at 7-9)). I agree with Bear’s observation. The

40a
The Trustee presents no evidence that that Bankruptcy Court committed clear error in deciding that
the market was functioning, or that Bear acted rationally and in good faith when it conducted the auction.
(See D.I. 29 at 6-18; D.I. 34 at 1-8). Furthermore, the
Trustee agrees that the Bankruptcy Court did not
make a clear error in deciding historical facts. (Tr.
15:17-16:4). Accordingly, I will affirm the Bankruptcy
Court’s findings of rationality and good faith.
B. Applicability of § 562
At summary judgment, the Bankruptcy Court
accepted Bear’s “bucket theory,” and found that the
SAI were traditional repos in accordance with subsection (i) of the Bankruptcy Code definition of “repurchase agreement.” (D.I. 30-1 at A333). As a result, the
Bankruptcy Court found that Bear was entitled to safe
harbor protection under § 559. (Id.). In an alternative
holding, the Bankruptcy Court found, “[T]he [SAI],
even if not outright repos, clearly are credit enhancements . . . and are entitled to the benefits provided to
repos in the safe harbor of Bankruptcy Code § 559.”
(Id. at A334).
However, the Trustee argues, “[The Bankruptcy
Court omitted and ignored the limiting language in
the catchall definition” in making its alternative
holding about “credit enhancements.” (D.I. 38 at 2)
(emphasis omitted). The catchall definition provides
that safe harbor protection for credit enhancements is
“not to exceed the damages in connection with any
such agreement or transaction, measured in accord-

Trustee seems to frame his arguments about the Bankruptcy
Court’s decision with the clear error standard in mind.

41a
ance with section 562 of this title.” 11 U.S.C.
§ 101(47)(v).
During the previous appeal, I held that the SAI
qualified as “repurchase agreements” as “credit
enhancements” under the catchall definition in
§ 101(47)(A)(v), rather than as “traditional repos”
under section § 101(47)(A)(i). (D.I. 30-1 at A373).
Then, on remand, the Trustee asked the Bankruptcy
Court to “address the implications of this Court’s
finding that the SAI qualified as “repurchase agreements” under subsection (v), rather than subsection
(i). (D.I. 38 at 3 (citing Bkr. No. 07-51740, D.I. 324 at
5-7)).4 The Bankruptcy Court “declined the Trustee’s
invitation to consider a broader set of issues than what
the District Court has specifically identified for [the
Bankruptcy] Court to address on remand.” (D.I. 30-1
at A445). In doing so, the Bankruptcy Court maintained that Bear was entitled to safe harbor protection
under § 559, and that Bear’s safe harbor protection
was not limited by “damages in connection with any
such agreement or transaction, measured in accordance with section 562 of this title.” 11 U.S.C.
§ 101(47)(v).
The Trustee argues that the Bankruptcy Court
erred in failing to consider whether my holding that
the SAI were “credit enhancements” means that § 562
limits Bear’s safe harbor protection. The Trustee
argues that “no court has ever ruled on the 11 issue.”
(D.I. 38 at 4; D.I. 29 at 18-20). Thus, argues the
Trustee, this Court must now make that ruling. (D.I.
4

In doing so, the Trustee preserved this issue for appeal. See,
e.g., McDonough v. Horizon Blue Cross Blue Shield of NJ., 641 F.
App’x 146, 149 (3d Cir. 2015) (“a reasonably detailed exposition
of an argument in the district court is required to preserve the
issue for appeal”).

42a
29 at 20). As an alleged legal error, I review de novo
the Bankruptcy Court’s determination that Bear was
entitled to safe harbor protection under § 559, absent
any limitation by § 562.
The Trustee argues that § 562 limits Bear’s safe
harbor protection in two ways that § 559 does not.
First, the Trustee argues that § 562 limits Bear’s safe
harbor protection to $8.1 million dollars. (D.I. 38 at 4).
Second, the Trustee argues that § 562 required the
Bankruptcy Court to determine whether Bear had
employed “commercially reasonable determinants of
value,” rather than just whether Bear “acted rationally, reasonably, and in good faith.” (Id. at 4-5).
As to the Trustee’s first argument, the extent to
which credit enhancements qualify as repurchase
agreements entitled to safe-harbor protection is “not
to exceed the damages . . . measured in accordance
with section 562.” 11 U.S.C. § 101(47)(v). The Trustee
argues, “Bear’s `damages’ with respect to the SAI were
limited to the $8.1 million balance of the repo debt
(the amount remaining after HomeBanc was credited
for the value of the 27 traditional repos retained by
Bear) . . . .” (D.I. 29 at 19). As a result, argues the
Trustee, “Bear’s safe harbor protection could not
extend beyond the $8.1 million necessary to satisfy
HomeBanc’s remaining debt.” (Id.). With the safe
harbor protection so limited, the Trustee argues he “is
entitled to judgment in his favor in the amount of
$81,115,659.61, plus prejudgment interest.”5 (Id. at
20).

5

This number is the SAI’s post-auction cash flow, less $8.1
million (the amount the Trustee concedes is protected by the safe
harbor). (D.I. 34 at 20 n.31).

43a
Bear, however, notes that § 562 is titled, “Timing of
damage measurement in connection with swap agreements, securities contracts, forward contracts, commodity contracts, repurchase agreements, and master
netting agreements.” (D.I. 39 at 3). “As that title
suggests,” argues Bear, “the section addresses exactly
one topic that conceivably could be relevant here: the
dates on which [Bear], as non-defaulting party, had it
been seeking damages from HomeBanc, could have
measured its damages in a claim against HomeBanc,
the defaulting party.” (Id. (citing In re Am. Home
Mortg. Holdings, Inc., 637 F.3d 246, 255-56 (3d Cir.
201I) (“Calyon”))). As the Third Circuit explained in
Calyon,
Sections 559 and 562 address different
situations. Section 559 applies only in the
event that a repurchase agreement is liquidated, and the liquidation results in excess
proceeds . . . . On the other hand, § 562 which
covers, inter alia, repurchase agreements,
applies when the contract is liquidated, terminated, or accelerated, and results in damages rather than excess proceeds.
637 F.3d at 255-56 (emphasis in original). As Bear
articulates, “Section 562 applies only in the event that
a repo default results in a claim for deficiency
damages.” (D.I. 39 at 4) (emphasis omitted). Bear did
not seek damages arising from HomeBanc’s default.
Rather, Bear’s liquidation of the HomeBanc securities,
including the SAI, through an auction, resulted in
excess proceeds. (D.I. 30-1 at A529, A92-106; D.I. 39 at
4). The $8.1 million sum highlighted by the Trustee is,
by the Trustee’s own admission, the “balance of the
repo debt.” (D.I. 29 at 19). “Debt” is not equivalent to

44a
“damages,” Calyon, 637 F.3d at 255-56, and the
Trustee offers no support for the proposition that it is.
Therefore, as Bear argues, “because there are no
damages to be ‘measured’ in accordance with Section
562 . . . , Section 562 cannot apply.” (D.I. 39 at 4). Thus,
I agree with the Bankruptcy Court’s holding, at summary judgment, that § 562 does not apply because
Bear did not seek damages. (D.I. 30-1 at A350-51).
As to the Trustee’s second argument, I hold that
there are no damages to be “measured” in accordance
with § 562. Given my holding, I need not assess the
parties’ arguments about whether Bear’s conduct
would also satisfy § 562’s “commercially reasonable”
standard. (D.I. 38 at 4-7; D.I. 39 at 4-7).
IV. CONCLUSION
For the reasons set forth herein, the Bankruptcy
Court’s final judgment is AFFIRMED. An appropriate
order will be entered.

45a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF DELAWARE
————
Bankruptcy Case No. 07-11079-KJC
Adv. No. 07-51740-KJC
BAP No. 17-24
————
In re: HOMEBANC MORTGAGE CORP., et al.
Debtors.
————
GEORGE L. MILLER, CHAPTER 7 TRUSTEE
FOR THE ESTATE OF HOMEBANC CORP.,
v.

Appellant,

BEAR STEARNS & CO., INC.,
BEAR STEARNS INTERNATIONAL LIMITED, AND
STRATEGIC MORTGAGE OPPORTUNITIES REIT, INC.
————

Appellees.

ORDER
For the reasons set forth in the accompanying
opinion, IT IS HEREBY ORDERED that the Bankruptcy Court’s June 14, 2017 final judgment (Bankruptcy Adv. No. 17-51740) is AFFIRMED.
Entered this 14 day of August, 2018.
/s/ Richard G. Andrews
United States District Judge

46a
APPENDIX F
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF DELAWARE
————
Chapter 7
Case No. 07-1I079 (KJC)
Adv. Case No. 07-51740 (KJC) (DI 15, 129, 134)
————
In Re: HOMEBANC MORTGAGE CORP., et al1
————

Debtors.

WELLS FARGO BANK, N.A., in its capacity
as Securities Administrator,
v.

Plaintiff,

HOMEBANC CORP., BEAR, STEARNS & CO., INC.,
BEAR, STEARNS INTERNATIONAL LIMITED, AND
STRATEGIC MORTGAGE OPPORTUNITIES REIT, INC.
Defendant.
————
OPINION2
BY: KEVIN J. CAREY, United States Bankruptcy
Judge
1

The related entities that filed chapter 11 petitions are:
HomeBanc Mortgage Corporation, HomeBanc Corp., HomeBanc
Funding Corp. II, HMB Acceptance Corp., HMB Mortgage
Partners, LLC, and HomeBanc Funding Corp. (the “Debtors” or
“HomeBanc”).
2

This Opinion constitutes the findings of fact and conclusions
of law, as required by Fed. R. Bankr. P. 7052.

47a
Much has been written about what has come to be
known as the subprime mortgage crisis, including
numerous newspaper accounts, scholarly articles, and
popular books.3 For the undersigned, it began on April
2, 2007, with the chapter 11 filing of New Century TRS
Holdings, Inc., at the time, the second largest subprime lender behind Countrywide Securities Corporation and the largest chapter 11 filing of 2007. The
subprime mortgage crisis was but a prelude to the
collapse of the United States financial markets later
in 2008.
The matter now before me involves the chapter
7 Trustee’s challenge to decisions made by Bear
Stearns4 in August 2007 after HomeBanc defaulted
under certain repurchase agreements and subsequently
commenced a chapter 11 case. After HomeBanc’s
default, the Bear Stearns repo desk liquidated certain
repurchase agreement assets (residential mortgagebacked securities) by means of an auction, but the
highest bid received was from Bear Stearns’ own trading desk. The Trustee for HomeBanc’s now chapter 7
case objects to Bear Stearns’ use of an auction to value
the securities, claiming the market in August 2007
was dysfunctional, thereby making it impossible for a
reasonable price to be obtained for these securities.
Proof of this, the Trustee asserts, lies, in part, in
the fact that the securities increased substantially in
value after the auction.
The Bankruptcy Code recognizes the “need for
speed” in connection with the enforcement of contrac3

See, e.g., Michael Lewis, The Big Short: Inside the Doomsday
Machine, (W.W. Norton & Co. 2011).
4

Defendants Bear Stearns & Co., Inc., Bear Stearns International Limited and Strategic Mortgage Opportunities REIT, Inc.
are jointly referred to herein as “Bear Stearns.”

48a
tual rights by non-defaulting parties under certain
financial contracts.5 “Congress has enacted exceptions
to the general rule disallowing ipso facto clauses for
swaps and certain other types of financial contracts
to address volatility in the financial markets which
‘can change significantly in a matter of days, or even
hours . . . . [A] non-bankrupt party to ongoing securities and other financial transactions could face heavy
losses unless the transactions are resolved promptly
and with finality.’”6 The Bankruptcy Code offers a safe
harbor allowing parties to exercise contractual rights
without being impeded by the automatic stay or “otherwise limited” by any Bankruptcy Code provision or
order of the Bankruptcy Court.7
The trial evidence showed that although participants in the market in August 2007 knew the market
was “stressed,” trades were, in fact, taking place. Bear
Stearns followed the usual procedures for selling
residential mortgage-backed securities by auction. I
conclude that Bear Stearns’ auction of repurchase
agreement collateral in August 2007 was rational, in
good faith and in compliance with the Global Master
Repurchase Agreement.
BACKGROUND
On August 9, 2007 (the “Petition Date”), the Debtors
filed voluntary chapter 11 bankruptcy petitions. By
5

See, inter alia, 11 U.S.C. §§ 559-562; § 362(b)(6), (7), (17),
(27).
6

Michigan State Housing Dev. Auth. v. Lehman Bros.
Derivative Prod. Inc. (In re Lehman Bros. Holdings, Inc.), 502
B.R. 383, 392 (Banks. S.D.N.Y. 2013) quoting H.R. Rep. No. 101484, at 2 (1990) reprinted in 1990 U.S.C.C.A.N. 223, 224 (discussing 11 U.S.C. § 560 and swap agreements).
7

See, e.g., 11 U.S.C. § 559.

49a
Order dated February 24, 2009, the cases were
converted to a chapter 7 liquidation, and on February
25, 2009, George Miller was appointed as chapter 7
trustee (the “Trustee”).
On October 25, 2007, Wells Fargo Bank, N.A.
(“Wells Fargo”) commenced this adversary proceeding
by filing an interpleader complaint against three
parties: (i) HomeBanc Corp., (ii) Bear, Stearns & Co.,
Inc. (“BSC”), and (iii) Bear, Stearns International
Limited (“BSIL”).8 Wells Fargo was securities administrator, paying agent, note registrar and certificate
registrar for certain mortgage-backed certificates held
by Bear Stearns. Wells Fargo filed the Interpleader
Complaint because HomeBanc and Bear Stearns asserted competing claims to the principal and interest
payment due on the mortgage-backed certificates for
the month of August 2007 (the “August Payment”).
Pursuant to an Order dated June 2, 2011, Wells Fargo
deposited the August Payment with this Court and
was subsequently dismissed from the adversary proceeding on June 8, 2011.
As part of the adversary proceeding, Bear Stearns
and HomeBanc filed cross-claims against each other.9
8

Wells Fargo amended the Interpleader Complaint on November 19, 2007, adding Strategic Mortgage Opportunities REIT, Inc.
(“SMOREIT”) as a defendant. BCS, BSIL and SMOREIT, together, are referred to jointly herein as “Bear Stearns”.
9

On December 7, 2007, HomeBanc filed an answer to the
Interpleader Complaint which included affirmative defenses and
crossclaims against Bear Stearns (Adv. D.I. 16). On the same
date, Bear Stearns also filed an answer to the Interpleader Complaint, which included affirmative defenses and two crossclaims
against HomeBanc. (Adv. D.I. 15).
After the Trustee was appointed, the Trustee filed a motion for
leave to amend crossclaims (Adv. D.I. 88), which was granted by

50a
The Trustee’s amended cross-claims against Bear
Stearns asserted eight counts, including Breach of
Contract, Conversion, Turnover of Property of the
Estate, Violation of the Automatic Stay, Unjust Enrichment, Avoidance and Recovery of a Preference,
Accounting and Breach of Fiduciary Duty. Bear
Stearns filed two cross-claims against HomeBanc:
Breach of the Repurchase Agreement, and Unjust
Enrichment.
On December 7, 2010, the Trustee and Bear Stearns
filed cross-motions for summary judgment. In their
papers and at oral argument, the parties focused their
attention on three issues. By Opinion and Order dated
January 18, 2013 (referred to herein as HomeBanc I),10
I decided those three issues as follows:
(1) certain transactions between HomeBanc and
Bear Stearns relating to specific securities are repurchase agreements under Bankruptcy Code § 101(47),
and, therefore, Bear Stearns’ exercise of its contractual rights with respect to those securities fell within
the safe harbor of Bankruptcy Code § 559;
(2) the plain language of the controlling contracts,
as well as previous decisions in this Circuit, provided
that the August Payment should be paid to the
registered certificate holder of the Interpleader Securities as of the record date, i.e., HomeBanc.; and
Order dated December 18, 2009 (Adv. D.I. 126). The Trustee filed
his answer and amended crossclaims (Adv. D.I. 129), and Bear
Stearns filed an answer and affirmative defenses to the amended
crossclaims (Adv. D.I. 134).
10

Wells Fargo Banla. N.A. v. HomeBanc Corp. (In re
HomeBanc Mortg. Corp), 2013 WL 21180 (Bankr. D. Del. Jan. 18,
2013) (“HomeBanc I”) aff’d, in part, and rev’d, in part, Miller v.
Bear Stearns & Co., Inc. (In re HomeBanc Mortg. Corp.), 2014 WL
1268677 (D. Del. Mar. 27, 2014).

51a
(3) Bear Stearns’ liquidation of the securities by
auction in August 2007 was not irrational or in bad
faith, and was permitted under the applicable repurchase agreement.
The Trustee appealed and, on March 27, 2014, the
District Court issued a Memorandum Opinion affirming, in part, and reversing, in part, HomeBanc I.11 The
District Court reversed the grant of summary judgment on the issue of whether the auction complied
with the underlying contract, deciding (in part) that
the Trustee’s expert report (which had not been considered), together with the fact that the winning bid
was submitted by Bear Stearns’ trading desk, created
factual issues about Bear Stearns’ good faith.12 On
remand, a six-day trial was held to consider the issue
of Bear Stearns’ good faith in connection with the sale
of the securities by auction.
For the reasons that follow, I conclude that it was
neither irrational nor bad faith for Bear Stearns to
liquidate the repurchase agreement collateral by an
auction in August 2007. After examining the evidence
surrounding the auction process and the market conditions at the time, I conclude that Bear Stearns’ auction
was completed in accordance with industry standards.
Because the process was fair and customary, it also
was not bad faith for Bear Stearns to accept the
auction results as providing the fair market value of
the securities.

11

Miller v. Bear Stearns & Co., Inc. (In re HomeBanc Mortg.
Corp.), 2014 WL 1268677 (D. Del. Mar. 27, 2014) (“HomeBanc
II”).
12

HomeBanc II, 2014 WL 1268677 at *5-*6.

52a
FACTS
Prior to its bankruptcy filing, HomeBanc was in the
business of originating, securitizing and servicing
residential mortgage loans.13 During the last several
years of its existence, HomeBanc originated billions of
dollars of residential mortgages, many of which were
“securitized,” i.e., transferred to securitization trusts
which issued securities that were sold to institutional
and other investors.14 HomeBanc routinely retained
mortgage-backed securities from various securitizations, including the so-called subordinate tranches
and residual interests that were created as part of the
securitization process.15
In 2005, HomeBanc entered into two repurchase
agreements with Bear Stearns:
(1) the master Repurchase Agreement dated
as of September 19, 2005 between
HomeBanc and BSC (the “MRA”); and
(2) the TBMA/ISMA Global Master Repurchase Agreement dated as of October 4,
2005 between HomeBanc and BSIL (the
“GMRA”).16
Between October 2005 and August 2007 HomeBanc
obtained financing from Bear Stearns through numer-

13

Stipulation of Undisputed Facts, ¶ 1.

14

Stipulation of Undisputed Facts, ¶ 2.

15

Stipulation of Undisputed Facts, ¶ 3.

16

Stipulation of Undisputed Facts, ¶ 4. Joint Trial Exhibits 1
and 2.

53a
ous repurchase transactions under the MRA and
GMRA.17
The HomeBanc Default
On August 7, 2007, the terms of the repo transactions between HomeBanc and Bear Stearns expired.18
On that date, Bear Stearns purchased outright from
HomeBanc thirteen securities that had been part of
the repurchase transactions at the price of approximately $121 million.19 The remaining securities included three mortgage-backed securities that were
subject to repurchase agreements between HomeBanc
and BSC pursuant to the MRA, and 34 mortgagebacked securities that were subject to repurchase
agreements between HomeBanc and BSIL pursuant to
the GMRA (the “Remaining Securities”). Among the
Remaining Securities were the nine securities at issue
in this litigation (the “Securities at Issue”), which had

17

“A repurchase agreement, or repo, is a transaction whereby
one party transfers a security to another in exchange for funds
along with a simultaneous agreement by the transferee to give
back the security upon repayment of the funds.” HomeBanc II,
2014 WL 1268677, *1, n.1. See also Bankruptcy Code § 101(47).
18

Connell Tr. at 32:15-33:1. Brian Connell testified as a designated representative of the Bear Stearns defendants in depositions with the Trustee for the matters in dispute. Connell Tr.
21:9-21:21. Connell worked for ten years on Bear Stearns’ fixed
income finance desk (also called the repo desk) during the time
in question. Connell Tr. 22:12-22:24. The page numbers for the
transcripts for the entire six-day trial are numbered continuously
and consecutively, rather than starting each day at page 1.
Reference to the transcripts will refer to the witness, followed by
the page and line number.
19

Connell Tr. 30:13-32:14.

54a
been transferred by HomeBanc to BSIL pursuant to
the terms of the GMRA:20
HBMT 2004-1, Class R
HBMT 2004-2, Class R
HBMT 2005-1, Class R
HBMT 2005-2, Class R
HBMT 2005-3, Class R
HBMT 2005-4, Class B-2
HBMT 2005-4, Class R
HBMT 2006-2, Class R
HBMT 2007-1, Class R
Eight of the nine Securities at Issue were residual
interests in HomeBanc securitizations (excluding
HBMT 2005-4, Class B-2) that were neither rated by
rating agencies, nor traded on any exchange.21

20

Stipulation of Undisputed Facts, ¶ 9.

21

Stipulation of Undisputed Facts, ¶ 17. At trial, Bear Stearns’
expert witness described a “residual” security to the Court as
follows:
[T]he way residual mortgage-backed securities trusts
work is . . . [thinking] of them almost like a little
company. The asset side of the balance sheet consists
of mortgage loans that are owned by the trust, and the
liability side of the balance sheet consists of senior
bonds and subordinated bonds that are issued by the
trust.
And then whatever’s left over is the residual
tranche. So, . . many people have described it like the
equity, in that the equity is the owner of the residual
cash flow in a regular company.
Attari Tr. 890:8-890:20.

55a
Upon expiration, HomeBanc was obligated to repurchase the 37 Remaining Securities at an aggregate
price of approximately $64 million.22 Bear Stearns
offered to roll (or extend) HomeBanc’s due date for
repurchase of the Remaining Securities at a price of
approximately $27 million.23 Bear Stearns also offered
to buy 36 of the Remaining Securities outright at
a purchase price of approximately $60.5 million.24
HomeBanc rejected Bear Stearns’ offer to buy the
Remaining Securities.25 By the close of business on
August 7, 2007, HomeBanc neither repurchased the
Remaining Securities for approximately $64 million
(as required by the MRA and the GMRA), nor paid $27
million to roll the due date for the Remaining Securities.26

22

Connell Tr. 33:23-34:4.

23

Connell Tr. 33:1-33:19. The Trustee’s amended crossclaims
describe the August 7, 2007 $27 million demand as a “Margin
Call” under the MRA or a request for a “Margin Transfer” under
the GMRA. See Adv. D.I. 129, ¶ 98 - ¶ 107.
24

Connell Tr. 34:20-35:21. Bear Stearns’ offer to purchase 36
of the Remaining Securities also included an offer to purchase
servicing rights in connection with certain securities for another
$30 million. HomeBanc rejected the entire offer. Connell Tr.
35:15-35:20. See also Chasin Tr. 1033:11-1036:15; Joint Trial Ex.
4. Matthew Chasin worked at Bear Stearns from 1994 until 2008.
Chasin Tr. 1015:14-1015:21. Chasin started as an associate on
the repo desk and was promoted to more senior roles, specifically
on the mortgage and credit financing side. Chasin Tr. 1016:11016:12. In August 2007, he was a senior managing director with
overall management responsibility for the mortgage and repo
trading area. Chasin Tr. 1016:13 1017:19.
25

Connell Tr. 34:20-35:21.

26

Connell Tr. 34:11-34:19.

56a
By email dated Wednesday, August 8, 2007, at 5:58
pm, Bear Stearns sent a default notice to HomeBanc
which read:
We are hereby notifying you that all repurchase Transactions that Bear, Stearns & Co.
Inc. and Bear, Stearns International Limited
currently have with HomeBanc Corp. under
the terms of the above-referenced agreements
will not be “rolled”, repriced or otherwise
extended in any way, and as a result all such
Transactions terminate on the scheduled
Repurchase Date for such Transactions which
is today, Wednesday, August 8, 2007. Under
the terms of the MRA and the GMRA, all
aggregate Repurchase Prices for all such
Transactions, and all other related amounts
owing by HorneBanc Corp. to Bear, Stearns
& Co. Inc. and Bear, Stearns International
Limited, are due and payable in full by
HomeBanc Corp. by the close of business today.
Notwithstanding the foregoing, and without
in any way waiving any of its rights or
remedies under the MRA or the GMRA or
otherwise, Bear, Stearns & Co. Inc. and Bear
Stearns International Limited have at the
present time decided to give HomeBanc Corp.
until the close of business tomorrow, Thursday,
August 9, 2007, to make all such payments in
full to Bear, Stearns & Co. Inc. and Bear,
Stearns International Limited.27
HomeBanc still failed to make any payment to
repurchase the Remaining Securities.28 On August 9,
27

Joint Trial Ex. 3. Connell Tr. 36:4-36:9.

28

Connell Tr. 204:18-204:24.

57a
2007 at 7:07 p.m., Bear Stearns sent formal default
notices by email to HomeBanc.29 HomeBanc and
various related entities filed voluntary petitions for
relief under chapter 11 of the U.S. Bankruptcy Code
on the same day.30
As a result of HomeBanc’s default, Bear Stearns
took the position that it owned the Remaining Securities outright.31 Management at Bear Stearns decided
to auction the Remaining Securities to determine the
fair market value of those securities.32
By emails sent between the morning of August 10,
2007 and August 14, 2007, Bear Stearns announced its
intention to conduct an auction of the Remaining
Securities (including the Securities at Issue) on
August 14, 2007 (the “August 14 Auction). 33 The mails
(the “Bid Solicitations”) advised that Bear Stearns was
conducting an auction of two groups of assets (one
group owned by BSC and one group owned by BSIL)
and attached a bid list for each group of assets that
listed each security, including each individual security’s unique CUSIP identifier, the original face
amount of the security, and the current factor for each
security.34 The Bid Solicitations also noted that certain
securities were subject to transfer restrictions and

29

Joint Trial Ex. 5 and Ex. 6.

30

The chapter 11 case was converted to chapter 7 in February
2009.
31

Connell Tr. 36:24-37:19.

32

Connell Tr. 211:16-212:4; Chasin Tr. 1039:22-1041:22.

33

Stipulation of Undisputed Facts, ¶ 10.

34

Joint Trial Ex. 7.

58a
could only be purchased by a Real Estate Investment
Trust, or REIT.35
Bear Stearns’ sales force sent the Bid Solicitations
to approximately 200 different entities and, at some
entities, multiple individuals within the entity were
solicited.36 The Bid Solicitations, however, were not
sent to HomeBanc, and HomeBanc was not provided
with advance notice of the August 14 Auction.37
On August 14, 2007, Bear Stearns’ mortgage trading
desk submitted an “all or none” bid of $60.5 million for
36 of the Remaining Securities (including all of the
Securities at Issue).38 Tricadia Capital, LLC submitted

35

The restrictions were not imposed by Bear Stearns, but
were characteristics of the securities themselves and the result
of particular aspects of HomeBanc’s securitization of the loans
underlying the securities. Chasin Tr. 1066:16-1067:19; Bockian
Tr. 786:22-788:8. Bear Stearns proffered Jeffrey Bockian, a manager of the repo desk at Countrywide Securities, as an expert
witness with respect to customary and industry practice related
to repo transactions and related auctions of residential mortgagebacked securities in connection with termination of repo agreements. Tr. 763:18-764:6. The Trustee did not object to Mr.
Bockian’s designation as an expert witness. Id.
36

Connell Tr. 75:7-75:14; 230:14-235:14; Bear Stearns Ex. 60-

37

Stipulation of Undisputed Facts, ¶ 12.

A.
38

Stipulation of Undisputed Facts, ¶ 15. Joint Trial Ex. 13.
One of the 37 Remaining Securities was removed from the August
14 Auction because HomeBanc and JPMorgan had agreed to a
transaction in which JPMorgan would purchase the security for
$1 million. Joint Ex. 4. The JPMorgan transaction was not consummated and the security was offered in a subsequent Bear
Stearns auction. Bear Stearns’ trading desk submitted a bid of
$1,256,000 for the security. Joint Trial Ex. 18; Connell Tr. 270:11272:5.

59a
the only other bid in the August 14 Auction, which was
a bid totaling $2,187,290 for two securities.39
On August 15, 2007, the prior day’s lump-sum bid
from the trading desk for the Remaining Securities
was allocated on a security-by-security basis.40 Bear
Stearns allocated a value of $900,000 for each of the
nine Securities at Issue, thereby crediting an
aggregate value of $8.1 million from the total auction
amount to those securities.41 Bear Stearns and its
affiliates retained possession and record title of the
Securities at Issue, and have received and retained the
post-August 14 Auction cash flow distributed in connection with the Securities at Issue.42
JURISDICTION
Congress granted jurisdiction over bankruptcy cases
to the district courts in 28 U.S.C. § 1334, and then
provided that “[e]ach district court may provide that
any or all cases under title 11 and any or all proceedings arising under title 11 or arising in or related to a
case under title 11 shall be referred to the bankruptcy
judges for the district.”43 In 28 U.S.C. § 157(b)(1),
Congress limited the Bankruptcy Court’s authority to
enter final judgment to core proceedings.
Congress gave bankruptcy courts the power
to “hear and determine” core proceedings and
39

Joint Trial Ex. 12; Chasin Tr. 1126:10-1126:12. Mr. Connell
testified that you had to multiply the price on Tricadia’s fax by
the factor and face amount to arrive at the total bid price. Connell
Tr. 261:9-262:18.
40

Stipulation of Undisputed Facts, ¶ 16.

41

Joint Trial Exs. 15, 19.

42

Stipulation of Undisputed Facts, ¶ 18.

43

28 U.S.C. § 157(a).

60a
to “enter appropriate orders and judgments,”
subject to appellate review by the district
court. § 157(b)(1); see § 158. But it gave bankruptcy courts more limited authority in noncore proceedings: They may “hear and determine” such proceedings and “enter appropriate orders and judgments,” only “with consent of all the parties to the proceeding.”
§157(c)(2). Absent consent, bankruptcy courts
in non-core proceedings may only “submit
proposed findings of fact and conclusions of
law,” which the district courts review de novo.
§ 157(c)(1).44
In Stern v. Marshall, however, the United States
Supreme Court determined that “Congress violated
Article III of the Constitution by authorizing bankruptcy judges to decide certain claims for which
litigants are constitutionally entitled to an Article III
adjudication.”45 Thus, a bankruptcy court cannot enter
final judgment on a “Stern claim,” that is, “a claim
designated for final adjudication in the bankruptcy
court as a statutory matter, but prohibited from
proceeding in that way as a constitutional matter.”46
The Supreme Court later decided that Article III
permits bankruptcy courts to enter final judgment in
Stern claims submitted to them by consent of the
parties.47
44

Wellness Int’l Network, Ltd. v. Sharif, U.S., 135 S. Ct. 1932,
1939, 191 L.Ed. 2d 911. (2015).
45

Id. citing Stern v. Marshall, 564 U.S. 462, 131 S. Ct. 2594,
180 L.Ed.2d 475 (2011). See also Executive Benefits Inc. Agency v.
Arkison, U.S., 134 S .Ct. 2165, 189 L.Ed. 2d 83 (2014).
46

Executive Benefits, 134 S. Ct. at 2170.

47

Wellness Int’l, 135 S. Ct. at 1949.

61a
This Court has jurisdiction to decide this matter
pursuant to 28 U.S.C. § 157 and § 1334. While some of
the Trustee’s claims are core proceedings pursuant to
28 U.S.C. § 157(b)(2)(E), (F) and (O), other claims by
the Trustee, as well as cross-claims by Bear Stearns,
are non-core, related-to claims for breach of contract,
conversion and unjust enrichment.48 It is undisputed
that the parties consented to entry of a final order by
this Court when this adversary proceeding started.49
The Supreme Court has since confirmed that, due to
the parties’ consent, I have authority to enter final
judgment on all of the claims before me.50
DISCUSSION
The Trustee filed amended cross-claims against
Bear Stearns alleging, in part, that Bear Stearns
disposed of the Securities at Issue through an auction
that did not comply with the terms of the GMRA
because it was not conducted in good faith or in a
commercially reasonable manner. In HomeBanc I, I
examined the language of the GMRA and determined
that, after HomeBanc defaulted, the GMRA granted
Bear Stearns discretion in choosing a rational manner
to determine the Net Value of the Remaining Securi-

48

“[R]elated to” jurisdiction applies when “the outcome could
alter the debtor’s rights, liabilities, options, or freedom of action
(either positively or negatively) and which in any way impacts
upon the handling and administration of the bankrupt estate.”
Opt-Out Lenders v. Millennium Lab Holdings II, LLC (In re
Millennium Lab Holdings II, LLC), 2017 WL 1032992, *2 (D. Del.
Mar. 17, 2017) citing Paco, Inc. v. Higgins, 743 F.2d 984, 994 (3d
Cir. 1984).
49

See Tr. 4/29/2014 at 12:15-12:19 (Adv. D.I. 321).

50

Wellness Int’l, 135 S. Ct. at 1949.

62a
ties (including the Securities at Issue).51 The GMRA
defined Net Value as:
the amount which, in the reasonable opinion
of the non-Defaulting Party, represents [the
Remaining Securities’] fair market value,
having regard to such pricing sources and
methods . . . as the non-Defaulting Party
considers appropriate, less, . . all Transaction
costs which would be incurred in connection
with the . . . sale of such Securities.”52
The Trustee appealed HomeBanc I to the District
Court, which agreed that the language of the GMRA
granted Bear Stearns discretion to determine Net
Value, and also agreed that the word “reasonable”
modifying Bear Stearns’ discretion added a “rationality” requirement, obligating Bear Stearns to act in
good faith.53
However, the District Court did not agree that it was
appropriate to grant summary judgment on the issue
of whether Bear Stearns’ auction complied with the
GMRA, deciding that the Trustee’s expert report
explained why he thought the Bear Stearns’ auction
suffered from a number of serious flaws, raising

51

HomeBanc I, 2013 WL 211180 at *14-*16.

52

HomeBanc I, 2013 WL 211180 at *15 citing GMRA,
§ 10(d)(iv). In short, calculating the Net Value allows the parties
to set off or net the Net Value of the Remaining Securities against
the amount HomeBanc owed Bear Stearns to determine whether
Bear Stearns held a deficiency claim against HomeBanc or,
alternatively, whether Bear Stearns owed monies to HomeBanc
if the value of the Remaining Securities exceeded the HomeBanc
claim.
53

HomeBanc II, 2014 WL 1268677 at *5.

63a
a factual issue about Bear Stearns’ good faith.54
The District Court affirmed HomeBanc I, except with
regard to the issue of whether the auction complied
with the GMRA.55 The trial on remand focused on this
issue, which will be explored in three parts: (i) whether
Bear Stearns’ decision to determine the Net Value
of the Securities at Issue by auction in August 2007
was rational or in good faith; (ii) whether the auction
process utilized by Bear Stearns was in accordance
with industry standards; and (iii) whether Bear
Stearns’ acceptance of the value obtained through the
auction was rational or in good faith.
1. Was it a good faith/rational decision of Bear
Stearns to determine fair market value of the
Securities at Issue by an auction in August
2007?
The Trustee argues that Bear Stearns’ decision to
value the Remaining Securities through a “buyer-less
auction in a dysfunctional market” was irrational,
arbitrary, in bad faith and a breach of the GMRA. The
Trustee asserts two propositions: (i) that there is no
market for residual securities such as the Securities at
Issue and, therefore, the only reasonable way to value
such assets is by using a model such as the discounted
cash flow model (the “DCF Model); and (ii) even if
there is a market for residuals, the timing of Bear
Stearns’ auction was irrational and in bad faith
because the market in August 2007 was dysfunctional.

54
55

Id. at *6.

Id. Also, as discussed infra., the District Court partially
affirmed, and partially rejected, my conclusion that the Securities
at Issue were “Repurchase Agreements” as defined in Bankruptcy
Code § 101(47)(A).

64a
(a) Bear Stearns’ use of an auction to value the
Securities at Issue
The Trustee claims that there is no organized
market for the Remaining Securities, especially with
respect to the Securities at Issue which, he argues,
were “bottom of the stack” residuals and were not
liquid. An expert witness for the Trustee, Dr. Steven
V. Mann, opined that, as securities get less liquid and
more complicated, models, such as the DCF Model,
should be used to determine value, especially for residential mortgage-backed securities which have value
because they are cash-flow producing assets.56 In July
2010, the Trustee’s expert issued a report valuing the
Securities at Issue at $124.6 million by using a DCF
Model that calculated the present value of the projected cash flow from August 2007 to maturity.57 For
reasons explained more fully infra, Bear Stearns
criticized many of the assumptions underlying the
Trustee’s expert report, including a failure to consider
significant events and similar market transactions
occurring in and around August 2007. Of course, to the
extent assumptions in a model are wrong, the model
may prescribe a value that is too low or too high.
Bear Stearns agrees that a discounted cash flow
model would have been one way to determine the
value of the Securities at Issue.58 However, an alternative valuation method, perhaps the most obvious one,
is to enter the marketplace and see what someone is

56

Mann Tr. 450:13-455:21. Dr. Steven V. Mann was admitted,
without objection, as an expert witness on fixed income securities.
Mann Tr. 438:22-439:8.
57

HomeBanc Ex. 67.

58

Connell Tr. 46:21-48:10.

65a
willing to pay for the securities.59 Repo participants
often rely on the markets to value securities. As
discussed by Bear Stearns’ expert, Mr. Bockian:
[W]hat I would view to be market value for
any security, not necessarily just the securities at issue, is what buyers and sellers will
really transact in the marketplace.
For a repo trader, that’s the benchmark. It
doesn’t matter if a security is worth 60 and I
think it’s going to 80. I don’t finance it based
on 80. I finance it based on 60.
A cash trader might buy it for 60 because he
thinks it’s going to 80, but for repo market
participants, the game is about providing
financing at the current market value of a
security which we generally look at as . . .
where would that bond transact in the marketplace, particularly . . . where could I liquidate the bond if, heaven forbid, I had to.60
After HomeBanc’s default, a group of senior managers at Bear Stearns met with their counsel to
determine the most appropriate way to address the
situation.61 The situation was not unique for Bear
Stearns because, just prior to HomeBanc’s default,
another client—American Home Mortgage—defaulted
on its repurchase financing transaction and Bear
Stearns also used an auction to sell securities that
were similar to the Remaining Securities, including

59

Id.

60

Bockian Tr. 881:23-882:17.

61

Chasin Tr. 1028:11-1028:24; 1039:22-1040:18; 1106:151109:13.

66a
residuals like the Securities at Issue.62 Bear Stearns
executives decided that the best measure of value,
especially in a turbulent, volatile market, was to seek
prospective bidders for securities.63
The Trustee’s expert agreed that these securities
were traded in an “over-the-counter market” and that
prices could be obtained by a dealer.64 Bear Stearns
demonstrated that residential mortgage-backed securities, including residuals like the Securities at Issue,
were sold through an auction method known as
“BWIC” or “bids wanted in competition,” which is a
“commonly used . . . auction technique to gain interest
and actually buy and sell securities among institu62

Chasin Tr. 1048:24-1052:2. Connell Tr. 215:13-216:19;
253:20-254:13. Like the HomeBanc auction, the Bear Stearns
repo desk sold some residual securities from the American Home
Mortgage auction to the Bear Stearns trading desk. Chasin Tr.
1149:6-1149:15.
63

Connell Tr. 215:9-215:12.

64

Q: Are there any recognized markets or exchanges for the
trading of residuals?
A: If by “market” you mean organized exchange, no, there
is not. There is an over-the-counter market in which
these securities trade, which is the connection . . .
between computers and telephones between various
dealers throughout the world.
....
Q: Is there any place to go to get a price quote for a security
like that?
A: You would have to call a dealer and there’s no magic
board as to those prices, those buy-and-sell interests.
Mann Tr. 449:2-450:12. Mr. Connell also testified that the securities were not traded on an organized exchange, but were traded
over-the-counter “through voice brokers . . . via telephone, via fax
machine, by email.” Connell Tr. 77:2-77:23.

67a
tional buyers and sellers.”65 The deposition testimony
of several witnesses who were active in the market in
August 2007 confirmed that, in and around 2007, it
was common in the industry for a seller of residual
mortgage-backed securities to solicit buyers on a daily
basis through email announcements of BWICs.66
Mr. Connell testified that Bear Stearns used an
auction, rather than a model, to determine the fair
market price of the securities because “models don’t
buy bonds,” and
[A] model . . . has a bunch of assumptions
baked in, and that might not reflect what the
true market value is. For us . . . the paramount way to decipher true market value is
what . . . someone else [is] going to pay for it.67
Mr. Chasin explained that Bear Stearns chose the
BWIC method to get a fair market price because the
process was:
similar to the process that Bear or similar
financial institutions would do if they were
selling similar portfolios of securities. . . . We
went to other financial institutions to try to
see if they had a larger or different network
of potential buyers, all to try to create as
many potential bidders as we could, and that
was something which we believed was in the

65

Bockian Tr. 771:8-771:17; 810:6-811:15.

66

Andrews Dep. 89:22-92:10; Ha Dep. 41:8-43:8; Herr Dep.
19:5-22:3, 52:10 -53:13; Makhija Dep. 20:3-21:10, 45:24-46:19;
Torres Dep. 15:19-19:10. The deposition designations were
docketed at Adv. D.1.380.
67

Connell Tr. 213:21-214:7.

68a
best interest of trying to get fair market
value.68
Mr. Chasin also explained that Bear Stearns did not
want to use computer generated values for the
securities because:
sometimes the matrix price, different pricing
methods, we had would be very good proxies,
but sometimes they weren’t. Markets could
get distressed, different situations could happen and the market price that we needed to
have were actually prices where somebody
would bid the securities.69
The Trustee claims that the DCF Model is the “gold
standard” for valuing securities. While there are a
number of ways to value the securities,70 the issue
before me is not which is the ideal valuation method,
but, rather, whether Bear Stearns’ decision to use a
BWIC auction to value the Securities at Issue was
irrational or in bad faith. Based upon the evidence
before me, I conclude that residential mortgagebacked securities—even residuals, like the Securities
at Issue—were often sold through BWICs and, therefore, Bear Stearns’ decision, made contemporaneously
with the HomeBanc default, to value the securities by
determining what someone in the market was willing
to pay for the Securities at Issue was not irrational or
in bad faith.
(b) The timing of Bear Stearns’ auction
Alternatively, the Trustee contends that even if it is
reasonable to value securities through a BWIC, the
68

Chasin Tr. 1041:3-1041:22.

69

Chasin Tr. 1042:3-1042:14.

70

Connell Tr. 47:10-53:4.

69a
timing of Bear Stearns’ decision was irrational and in
bad faith because the market was clearly “dysfunctional” in August 2007. The Trustee relies on the
American Home Mortgage decisions,71 in which the
Court of Appeals for the Third Circuit analyzed
language in Bankruptcy Code § 562 and determined
that a discounted cash flow analysis was an acceptable
type of “commercially reasonable determinants of
value” for calculating a damage claim under Bankruptcy Code § 562.72
In American Home Mortgage, the debtors and the
bank were parties to a repurchase agreement.73 After
the debtors defaulted, the bank exercised its acceleration rights under the repurchase agreement on
August 1, 2007, triggering the debtors’ obligation
to repurchase the mortgage loans held by the bank.74
The debtors filed chapter 11 bankruptcy petitions on
August 6, 2007 and the bank commenced litigation
seeking a declaratory judgment (and the Court so
held) that the repurchase agreement fell within the
definition of a “repurchase agreement” under Bankruptcy Code § 101(47) and that the bank’s rights “were
not stayed, avoided, or otherwise limited with respect
to ownership of the Loan Portfolio.”75
Later, the bank filed a claim for damages under
§ 562, and the debtors objected to the bank’s claim,
71

In re Am. Home Mortg. Holdings, Inc., 411 B.R. 181 (Bankr.
D. Del. 2009) (“AMH I”), aff’d but criticized 637 F.3d 246 (3d Cir.
2011) (“AMH II”). This case is also sometimes referred to as
“Calyon.”
72

AMH II, 637 F.3d at 255-58.

73

AMH I, 411 B.R. at 184.

74

Id.

75

Id. at 185.

70a
commencing the litigation that brought the issue
before the Bankruptcy Court. The bank argued
that the only appropriate valuation methodology for
measuring damages is the price obtained by selling the
loans on the market and, on August 1, 2007 the date
of acceleration), the bank could not obtain a commercially reasonable price because “the market was distressed and the Loan Portfolio suffered from a number
of deficiencies.”76 The bank argued that the earliest
date on which there existed a commercially reasonable
determinant of value was over a year later on August
15, 2008.77 The debtors argued in response that at
least two different methodologies were available on
the acceleration date to determine commercially reasonable values for the Loan Portfolio—a discounted
cash flow analysis and a market analysis obtained by
the bank outside the context of litigation.78
The Bankruptcy Court held that the bank did not
meet its burden of demonstrating that “no commercially reasonable determinants of value” existed on the
acceleration date because the debtors’ discounted cash
flow analysis is a commercially reasonable methodology for determining the value of the Loan Portfolio.79
On appeal, the Court of Appeals agreed that the
discounted cash flow analysis was a commercially
reasonable determinant of value for measuring damages under Bankruptcy Code § 562.80 The Third Circuit noted that “if Congress had intended § 562 to be
limited to market or sale price, it would have said so.
76

Id. at 186.

77

Id.

78

Id.

79

Id. at 198.

80

AMH II, 637 F.3d at 258-59.

71a
It did so in § 559.” Judge Rendell also noted in her
concurring opinion to AHM H that the language
of Bankruptcy Code § 562 clearly uses the plural,
referring to “commercially reasonable determinants of
value,” so that sale price should not be viewed as the
exclusive method for determining value.82 Under the
same reasoning, a DCF Model also is not the exclusive
method for determining value.
81

In HomeBanc I, I determined that the American
Home Mortgage decision did not apply here because
Bear Stearns acted under § 559, and was not seeking
a damage claim under § 562. The Trustee argues,
however, that Bankruptcy Code § 562 now applies
based on the District Court’s decision in HomeBanc II
There, the District Court rejected my conclusion in
HomeBanc I that the Securities at Issue fell within the
Bankruptcy Code’s definition of “repurchase agreement” pursuant to § 101(47)(A)(i), but agreed with my
alternative conclusion and decided that the disputed
securities qualified as repurchase agreements under
§ 101(47)(A)’s catchall provision:
It seems to me that the only possible reading
of this provision is that it is designed to
encompass some sorts of transactions that do
not fall neatly within the first four subsections. There is no doubt that the disputed
81
82

AMH II, 637 F.3d at 258.

AMH II, 637 F.3d at 259. Judge Rendell also noted that the
bank in American Home Mortgage retained the loans and received the cash flow and, therefore, using a DCF would appear
to be the most reasonable determinant of value. Id Here, Bear
Stearns sold the collateral through an auction proceeding, the
result of which transferred ownership to the Bear Stearns trading
desk. Although Bear Stearns ultimately owned the Remaining
Securities, it did so only after following a sale process.

72a
transactions were part and parcel of their
undisputed repo transactions. It therefore
seems to me that the extra securities were
plainly within the umbrella of “credit
enhancements.” I conclude the disputed securities were repo agreements within the
meaning of § 101(47)(A)(v).83
Bankruptcy Code § 101(47)(A)(v) provides:
The term “repurchase agreement” (which
definition also applies to a reverse repurchase
agreement)—
(A) means—
....
(v) any security agreement or arrangement
or other credit enhancement related to
any agreement or transaction referred
to in clause (i), (ii), (iii) or (iv) . . . , but
not to exceed the damages in connection
with any such agreement or transaction,
measured in accordance with section
562 of this title . . .84
Bankruptcy Code § 562 provides in pertinent part:
(a) If the trustee rejects a . . . repurchase agreement . . . or if a . . . repo participant . . .
liquidates, terminates, or accelerates such
contract or agreement, damages shall be
measured as of the earlier of—
(1) the date of such rejection; or

83

HomeBanc II, 2014 WL 1268677 at *4.

84

11 U.S.C. § 101(47)(A)(v) (emphasis added).

73a
(2) the date or dates of such liquidation, termination, or acceleration.
(b) If there are not any commercially reasonable determinants of value as of any
date referred to in paragraph (1) or (2) of
subsection (a), damages shall be measured as of the earliest subsequent date or
dates on which there are commercially
reasonable determinants of value.85
The Trustee argues that, because Bankruptcy Code
§ 562 applies, the American Home Mortgage decisions
also apply. In AMH II, the Court of Appeals agreed
with the Bankruptcy Court’s determination that:
[T]he market price should be used to determine an asset’s value when the market is
functioning properly. It is only when the
market is dysfunctional and the market price
does not reflect an asset’s worth should one
turn to other determinants of value.86
While there are similarities between the matter
before me and American Home Mortgage (i.e., a default
under a repurchase agreement in August 2007), there
are also striking differences that weigh against the use
of a DCF Model here. In American Home Mortgage, the
parties all agreed that the market for mortgage loans
(not mortgage-backed securities) was dysfunctional in
August 2007. Here, the issue of whether the market
for residential mortgage-backed securities was dysfunctional—and what exactly that means—is a matter

85

11 U.S.C. § 562.

86

AMH II, 637 F.3d at 257.

74a
of an energetic dispute. Further, the bank in American Home Mortgage did not try to sell the mortgage
loans after the default and acceleration in August
2007, but, instead, held the collateral. Bear Stearns
also remained in possession of the Remaining Securities after default, but it did so only after it held
a BWIC auction. Accordingly, I must examine the
Trustee’s claim that an auction should not have been
used as a “commercially reasonable determinant of
value.”
87

The Trustee points to comments of many witnesses
about the distressed state of the markets, but particularly relies on the deposition testimony of a Bear
Stearns’ mortgage trader stating that the market for
residential mortgage-backed securities in August 2007
was “very dysfunctional,” and having “little to no
liquidity.”88 The Trustee’s expert agreed, noting that
“market dysfunction” was “not a term in economics,”
but he defined it as:
low liquidity and . . . chaos in the market such
that the normal price discovery process is not
functioning properly. During those episodes,
prices can be detached from their true fundamental values and diverge considerably.”89
In contrast, Bear Stearns asserts that the complete
testimony of witnesses who were active in the residen87

The burden of proof standard of Bankruptcy Code § 562(c)
applies when damages are not measured as of the liquidation,
termination or acceleration date and one party objects to using a
different date. Here, both parties use the liquidation date, but
argue whether an auction or the DCF Model is a better commercially reasonable determinant of value.
88

Adv. D.I. 380, Van Lingen Dep. 10:10-12:06.

89

Mann Tr. 469:18-470:7.

75a
tial mortgage-backed securities market in August
2007 shows that the market was volatile and market
prices were declining, but the market was functioning
and transactions were occurring.90 Mr. Chasin testified:
Yes, it was a bad market. Market prices were
failing . . . It doesn’t mean that the market
wasn’t functioning. We know that in times of
stress, you have asset prices which fall. It
happens in markets all over the place. And
sometimes markets crash. And there are bad
markets and there’s bad days, but that
doesn’t mean things don’t trade. . . . So from
our perspective, we knew it was a bad market,
but we were still there making bids for clients
like we did for Homebanc.91
Further, Mr. Bockian, who managed the repo desk
at Countrywide Securities at the time, described the
market as follows:
[D]uring the period of time in question, which
is this August 2007 time frame, we were
observing market participants, . . . both buyers and sellers, . . . hedge funds, REITs, Wall
Street companies, insurance companies, all
kinds of professional pricers of mortgagebacked securities, which were contingent on . . .
the anticipated expected cash flows of the
90

Chasin Tr. 1044:10-1047:7; Connell Tr. 164:18-164:21 (“I
don’t think the market was dysfunctional. I think the market was
repriced.”); Adv. D.I. 380 Torres 49:22-50:13 (“There was a
market for mortgage-backed securities in the summer of 2007. . . .
In my opinion, it got more volatile from the beginning of the year
toward the end of the year and continued so into ’08. Certain
products were less liquid than others.”).
91

Chasin Tr. 1129:1-1129:18.

76a
securities, were being marked down precipitously, not just HomeBanc deals.
[T]he market as a whole had [a] . . . come-toJesus moment about . . . everything we’ve
built, all these securitizations, all these
many, many hundreds of billions of dollars of
outstanding securities which had relatively
thin margins between elevated default rates
and other poor characteristics in terms of how
the loans performed, that that margin was, in
retrospect, thin and looked like it might get
thinner.92
Mr. Bockian also recalled that:
[D]uring July and August and September of
2007, what I saw was a market that was
certainly depressed, particularly from a pricing and liquidity point of view, but that in
my observation was functioning. There were
bonds being traded. I was able to present
bonds to my cash traders. They were able to
price it for repo purposes. Being an observer
on the floor and sitting close to some of these
desks there were trades being done.
So I certainly would not deny that that was a
very rough period and that was a distressed
period in the market. You know, I think the
way I viewed it [was] that somewhere in
August of 2007 the market reached a tipping
point and a lot of stress did come in and prices
deteriorated.

92

Bockian Tr. 878:22-879:22.

77a
But I saw trades taking place, and that’s—
that’s where it is a little difficult to—for me to
call the market dysfunctional.93
Moreover, there was no evidence of other factors
that might be considered indicia of market dysfunction: asymmetrical information between buyers and
sellers, inadequate information in general (transparency of recent transactional prices), market panic (as
in the market immediately after the Lehman Brothers
September 15, 2008 bankruptcy filing), high transaction costs, the absence of any creditworthy market
participants or fraud.
The facts adduced here show a repo counter-party
acting in real time and in accordance with industry
standards to liquidate securities in a volatile market.
The Trustee faults the Bear Stearns repo desk for
considering that “time was of the essence” in disposing
of the Remaining Securities in August 2007, rather
than holding them.94 But Bear Stearns sought to
determine fair market value at the time of default,
rather than at an indeterminate point in the future,
especially due to its view that time was of the essence,
given that there was no indication in August 2007
when or if market prices would stabilize, and every

93
94

Bockian Tr. 850:21-852:4.

Mr. Connell explained: “We were not in that business. We
were financiers. We were not in the business of taking principal
risk against the residual and subordinate mortgage-backed
securities. . . . [O]ur function is to finance clients, to lend money
and then . . . get paid back. To the extent we end up with
securities, we wanted to . . . eliminate exposure as quickly as
possible and get paid back and settle up and move on.” Connell
Tr. 214:8-214:20.

78a
indication that the market might continue to decline.
Mr. Bockian testified:
[I]n August 2007 it, candidly, felt like things
weren’t going to get better. It was really
becoming hard to view housing prices which
were starting to accelerate in terms of depreciation and the knock-on effects to the
underlying mortgages as defaults rose.
It was very hard to see how, the period we’re
in, the moment we’re in in August 2007 was
going to be a natural stopping point for that
activity. It felt much more like we’re at the
beginning of the cascade, we’re at the beginning of the waterfall and still had time to
travel. And I think, in fact, that was borne
out by continued downward pressure on
home prices, continued knock-on effects in the
underlining loans’ performance and then the
creation of government programs that not
only were designed to help homeowners stay
in their homes and bring some stability to the
underlying mortgages, but then . . . the wholesale bailout of the banking sector because of
its exposure to mortgage-backed securities. 95
Parties trading at the time could see that the market
was unsettled, but trades were occurring. People were
making decisions in real time and had no guarantee
about when or if prices would bounce back or continue
to decline. After HomeBanc’s default, Bear Stearns
proceeded to liquidate the Remaining Securities as
permitted by the terms of the GMRA and as allowed
by the Bankruptcy Code. Bear Stearns chose to
auction the Remaining Securities to discover what a
95

Bockian Tr. 874:20-875:20.

79a
willing buyer would pay for the Remaining Securities
in the marketplace. The Bear Stearns trading desk
submitted a bid in accordance with the bid procedures.
Viewing the facts and circumstances in this case in
light of the events as they were unfolding in August
2007 shows that this auction was a commercially
reasonable determinant of value for Bear Stearns.
I conclude that Bear Stearns’ decision to determine
the value of the Securities at Issues by an auction in
August 2007 was not irrational or in bad faith.
2. Was the auction process utilized by Bear
Stearns in accordance with industry standards?
The Trustee posits that the auction process utilized
by Bear Stearns was deficient and designed in a way
to discourage bidding. Bear Stearns replies that the
auction process was a “thoughtful, good faith attempt
to generate outside bidding for the HomeBanc Securities, and in every respect complied with or exceeded
industry custom.”96
The Trustee’s expert, Mr. Scott Calahan of Boston
Portfolio Advisors, pointed out what he thought were
various flaws in the process that he perceived would
prevent other parties from bidding on the Securities
at Issue.97 First, Mr. Calahan claimed that the Bid

96
97

Adv. D.1.379, Bear Stearns’ Post-Trial Brief at 13.

Scott Calahan was offered as an expert witness on the
valuation and sale of mortgage-backed securities and, in particular, residuals. Tr. 586:16-591:15; 595:14-595:18. Bear Stearns’
objection to qualifying Mr. Calahan as an expert on the sale of
such collateral was overruled; although I noted that weight of Mr.
Calahan’s testimony would be affected by the type of his sales
experience. Tr. 597:11-607:18.

80a
Solicitation did not provide potential bidders with
sufficient information to formulate a bid.98 I disagree.
The Bid Solicitations listed the 37 Remaining Securities subject to auction, including security description, each individual security’s unique CUSIP identifier, the original face amount of the security, and the
current factor for each security.99 The Bid Solicitation
also advised potential bidders that if they wanted
more information (i.e., remittance reports and loan
tapes), they could contact Lisa Marks, an officer in
Bear Stearns’ FAST Group, who was familiar with the
Remaining Securities and what was needed to price
them.100 It was not practical for Bear Stearns to attach
other documents and data related to the Remaining
Securities (such as remittance reports or prospectus
supplements) to the Bid Solicitation because doing
so would significantly increase the size of the email,
which would prevent it from reaching its intended
recipients.101 However, data needed to prepare a bid
for securities with cash flows was available on thirdparty analytic software that was ubiquitous in the
finance industry, such as Bloomberg or Intex.102
Several industry witnesses agreed that the information in the Bid Solicitation allowed potential bidders to access documentation and other information
necessary to evaluate the Remaining Securities,
including the Securities at Issue, for the purpose of
98

HomeBanc Ex. 67 at 21.

99

Joint Ex. 7.

100

Joint Ex. 7. Chasin Tr. 1058:22-1059:11.

101

Chasin Tr. 1059:12-1060:11; Adv. D.J. 380 Hoffman Dep.
55:25-56:20.
102

Attari Tr. 900:14-903:4; Chasin Tr. 1059:12-1060:17; Adv.
D.I. 380 Andrews Dep. 42:6-42:25; Hoffman Dep. 50:1-50:11.

81a
formulating a bid.
The process and information
needed to evaluate the residual Securities at Issue is
no different from the process and information needed
to evaluate the more senior tranche Remaining
Securities.104 The weight of the evidence demonstrated
that the Bid Solicitation contained sufficient information for potential bidders to evaluate whether to
submit a bid and to formulate a bid.
103

Second, Mr. Calahan claimed the Bid Solicitation
did not provide adequate time for responses, since
potential bidders had only three business days or less
to submit irrevocable bids on complicated securities
that required considerably longer to evaluate.105 Here,
potential bidders were provided two and one-half
business days, as well as two full weekend days, to

103

Bockian Tr. 789:10-793:14 (Q: [L]ooking at this page in its
entirety, the descriptions of the securities, the information provided, in your view, sir, was there anything missing from this list
that is customarily provided? A: No. This is complete.); Adv. D.I.
380 Herr Dep. 22:12-22:22 (Q: If you received an email bid
solicitation for the sale of mortgage-backed securities, what information would you need to evaluate whether Credit Suisse is
interested in purchasing that security? A: A lot—I mean, pretty
much the information that’s listed on this bid solicitation is, you
know, pretty much market standard. You give the security name,
the CUSIP, the original face, which is the amount they’re looking
for a bid on. And the factor, obviously, is helpful.”); see also
Andrews Dep. 41:17-42:25; Tones Dep. 21:19-22:2, 25:14-26:16;
60:10-61:22).
104

Attari Tr. 899:16-900:13; Chasin Tr. 1062:2-1062:15. See
also Calahan Tr. 612:22-615:10 (describing the information
needed to value residual securities and agreeing that information
for public deals like the Securities at Issue was available from the
third-party programs, such as Bloomberg, or from the seller).
105

HomeBanc Ex. 67 at 21. Calahan Tr. 625:12-627:10.

82a
assess their interest and formulate a bid.106 Several
witnesses testified that this amount of time was more
than what was typically provided to buyers of residential mortgage-backed securities in a BWIC process,
and was more than enough time for sophisticated
participants in the market to evaluate and price
securities for the purpose of bidding in an auction.107
Based on their experience in the industry and in
consultation with counsel, senior managers at Bear
Stearns indicated that the auction timeline would
balance the need to provide adequate time for potential bidders to formulate a bid, but protect against
the risk of further market decline.108 Mr. Chasin
explained:
[W]e were trying to strike a balance. We were
trying to think about what was . . . enough
time for investors to take this information
which we were ready to give them relative to
106

Joint Ex. 7.

107

Adv. D.I. 380 Andrews Dep. 49:21-50:12; Ha Dep. 43:943:24; Torres Dep. 28:25-29:16; Makhija Dep. 25:21-27:10;
Bockian Tr. 780:13-781:16; Attari Tr. 900:18-901:16. See also
Mann Tr. 511:3-511:9 (“Q: And you agree, sir, don’t you, that Wall
Street investment banks and asset management firms have
models that are readily available to them to project cash flows
and determine values of residual interests in mortgage-backed
securities? A: That’s true.”)
108

Connell Tr. 236:22-238:12. See also Bockian Tr. 777:6777:21 (“You know, it’s very important to allow sufficient time for
the bidders to evaluate their interest and price the collateral in
the event they have interest in participating. At the same time,
it’s very important to not allow excess time, particularly in
August 2007, given that market conditions were, you know,
certainly deteriorating by the week and at times were deteriorating by the day. So that you’d want to allow sufficient time, but
you wouldn’t want to allow more than sufficient time.”)

83a
the risk of the market continuing to fall. . .
Pin Tuesday the client had failed to pay us
the pare-off amount when the trade was
rolled. . . . [W]e didn’t default them until
Thursday. We sent the bid out Friday to
conduct an auction the following Tuesday.
That to us felt like, you know, a lot of time for
the market, where the market was certainly
not getting any better.109
The record demonstrates that the BWIC provided
potential bidders with adequate time in accordance
with industry standards to formulate a bid.
Next, Mr. Calahan claimed that the manner in
which the Bid Solicitation was distributed failed to
target buyers in an appropriate fashion because the
email “blast” was likely to be ignored as spam.110 In
response, Bear Stearns submitted testimony of Mr.
Bockian who worked in the market in August 2007
and explained that distribution of the BWIC lists for
the Remaining Securities was:
in keeping with industry standard methods in
terms of how salespeople generally communicate with customers. So while it’s certainly - I
mean, I can understand on some level the use
of the word “spam” because you’re sending it
to a lot of different entities, but that is the
nature of the business. If you’re a salesperson, and certainly a sales team as large as
Bear Stearns’ sales team, you would send out

109

Chasin Tr. 1056:11-1057:16.

110

HomeBanc Ex. 67 at 19.

84a
e-mails to many recipients all at once. . . .
[T]his was the best way to do it.111
The Bid Solicitation was sent to at least 197 different
entities via email and/or the Bloomberg messaging
system.112 The Bid Solicitation was sent to a wide
variety of institutions that were active in the marketplace for residential mortgage-backed securities, including over 40 that were (or could transact on behalf
of) a real estate investment trust (or REIT).113
Among the recipients of the Bid Solicitation were
other broker dealers at Deutsche Bank, Royal Bank of
Scotland and UBS, who were competitors of Bear
Stearns and could utilize their sales forces to distribute widely the Bid Solicitations.114 Bear also utilized
its own sales force to send the bid solicitation emails
to its own clients because:
We wanted . . . to go through our sales force
to reach out to all the investors because this
was the most efficient way to do it. Our
salespeople were the best people to talk to
about the assets. They knew exactly who to go
to with their clients. If the clients received an
email from them, they would know that it was

111

Bockian Tr. 776:9-777:5. Adv. DI 380 Hoffman Dep. 63:464:3; Herr Dep. 18:24-19:151; 30:4-31:5.
112

Joint Ex. 14; Connell Tr. 225:4-226:5; Bear Stearns Ex.
60(A); Connell Tr. 230:14-235:14.
113

Bear Stearns Ex. 60(A); Bockian 802:1-803:23.

114

Connell Tr. 218:19-220:10; Chasin Tr. 1052:3-1053:3; Joint

Ex. 7.

85a
most likely related to buying or selling the
mortgage securities.115
Moreover, the sales force was rewarded based on “the
amount of transactions . . . [and] the amount of sales”
they completed, “so they were incentivized to go out
and do so.”116 Mr. Bockian testified that it is industry
custom for a large broker-dealer like Bear Stearns to
capitalize on the experience and contacts of its sales
force, which often interacts with its customers daily
and knows its customers’ areas of focus and interest.117
Further, it was appropriate for Bear Stearns to solicit
other broker/dealers who may have customer networks unknown to Bear Stearns and which would
increase the likelihood of getting bids.118 After the
auction, Bear asked the sales force to compile a list
of the people and entities who received the Bid
Solicitation.119 Bear Stearns’ evidence supports the
conclusion that it distributed the Bid Solicitations
widely and in accordance with industry standard.
Mr. Calahan also opined that the auction was deficient because its unreasonable rules required outside
bidders to submit irrevocable bids, while Bear Stearns
was permitted to remove securities, extend the
bidding deadline and/or cancel the auction.120 Bear
Stearns countered that many of the items criticized by
Mr. Calahan were procedural safeguards included in
115

Chasin Tr. 1068:5-1068:14. See also Connell Tr. 220:11223:11; Bear Stearns Ex. 19.
116

Connell Tr. 222:12-223:11.

117

Bockian Tr. 803:24-804:19.

118

Bockian Tr. 804:20-806:2.

119

Connell Tr. 223:12-223:21; 225:4-225:24; Chasin Tr. 1068:191070:8; Joint Ex. 14.
120

HorneBanc Ex. 67 at 20.

86a
the BWIC to protect the integrity of the auction and
encourage bidding. The Bid Solicitation provided that
bids were irrevocable for a three-hour period after the
3:00 p.m. bid submission deadline.121 Bear Stearns
explained that the irrevocability period provides Bear
Stearns with adequate time to assess any competing
bids, resolve any questions, and determine the winning bids on a security-by-security basis.122 The purpose of the provision allowing Bear Stearns to withdraw any securities from the auction or extend the
bidding deadline is to ensure that Bear Stearns would
not have to accept any unreasonably low bids that did
not reflect fair market value.123 None of these provisions were unusual or would prevent bidders from
bidding. 124
The Bid Solicitation also provided that an affiliate of
Bear Stearns reserved the right to submit a bid 30
minutes prior to the bidding deadline for non-Bear
Stearns affiliated bidders.125 Mr. Bockian testified that
it was not uncommon for broker/dealers to reserve the
right to bid at their own auction.126 The purpose of
requiring early submission for an affiliate’s bid was to
communicate to potential bidders that any Bear
Stearns affiliate could not access other bids and use
that information to top the highest bid as of the close
121

Joint Ex. 7.

122

Connell Tr. 238:14-239:4.

123

Connell Tr. 242:16-243:11; Chasin Tr. 1058:9-1058:21.

124

Bockian Tr. 794:23-796:2 (a three-hour irrevocable period
is very common), 796:3-797:4 (ability to withdraw securities from
bidding or extend the bidding deadlinc is common). See also Adv.
D.I. 380 Herr Dep. 37:5-37:15; Makhija Dep. 39:8-40:8.
125

Joint Ex. 7.

126

Bockian Tr. 797:19-798:19.

87a
of the auction. The Bid Solicitation also required
bids to be submitted to an attorney in Bear Stearns’
legal department, whose office was located in a
different building from the repo desk and the trading
desk.128 This “wall” was not typical in BWIC auctions,
but was a prudent and helpful measure to limit the
information that would be available to the trading
desk in preparing its bid.129
127

It is inescapably obvious that review of this auction
sale from one Bear Stearns desk to another calls for
particularly close scrutiny, but the evidence before me
shows that there was nothing unusual about the Bid
Solicitation procedures and nothing to indicate that
the procedures were designed to—or did—discourage
bidding on the Remaining Securities. Instead of
“favoring the house,” the procedures protected bidders
by preventing a Bear Stearns affiliate from gaining an
advantage in formulating its bid. I find no merit in
Mr. Calahan’s criticisms of the process used by Bear
Stearns to conduct the BWIC auction. Fuss as he may,
the Trustee was unable to offer credible evidence of
any untoward conduct by Bear Stearns in either its
decision to conduct an auction or in the conduct of the
auction itself. Accordingly, there is nothing in the record to support a conclusion that Bear Stearns conducted the auction in an irrational manner or without
good faith.130

127

Chasin Tr. 1064:15-1065:6

128

Joint Ex. 7; Connell Tr. 249:29-251:16.

129

Bockian Tr. 798:20-800:18.

130

The Trustee relies upon Gatz Properties v. Auriga Capital
Corp., 59 A.3d 1206 (Del. 2012) as a comparable case in which the
court awarded damages to minority members after insiders
purchased their interests in the limited liability company at an

88a
3. Was it a good faith/rational decision of Bear
Stearns to accept the outcome of the auction as
the fair market value of the Securities at Issue?
On August 14, 2007, prior to the deadline in the Bid
Solicitation, the Bear Stearns trading desk submitted
an “all-or-none” bid of $60.5 million for 36 of the 37
Remaining Securities, including all of the Securities
at Issue.131 Tricadia Capital, LLC submitted the
only other bid for two securities for a total bid of
$2,187,290.132
One of the Remaining Securities had been withdrawn from the August 14, 2007 auction because Bear
Stearns understood that HomeBanc had arranged
to sell the withdrawn security to JP Morgan.133
Since Bear Stearns owned the security, it solicited JP
Morgan for a separate auction on the security held on
August 17, 2007.134 JP Morgan did not submit a bid,
auction in which no competing bids were received. That case is
distinguishable on a number of levels and has no relevance here.
In particular, the court determined that the auction was a
“sham,” that was not marketed or advertised properly and conducted on onerous terms. The court wrote, “[b]y failing for years
to cause [the company] to explore its market alternatives, [the
insider] manufactured a situation of distress to allow himself to
purchase [the company] at a fire sale price at a distress sale.” Id.
at 1215 quoting Auriga Capital Corp. v. Gatz Properties, 40 A.3d
839, 875 (Del. Ch. 2012). Here, I have determined that Bear
Stearns’ auction procedures were usual and fair.
131

Stipulation of Undisputed Facts, ¶ 15. Joint Trial Ex. 13.
Connell Tr. 54:10-55:13; 262:19 -265:12.
132

The two securities were HMBT 2004-1 2B ($1,786,470) and
HMBT 2004-1 1B ($400,820). Joint Trial Ex. 12. Connell Tr.
261:6-262:18.
133

Connell Tr. 265:13-267:1; 270:11-271:8.

134

Joint Trial Ex. 16. Connell Tr. 270:11-271:8.

89a
and the security was sold to the Bear Stearns trading
desk for a bid of $1.265 million—more than HomeBanc
had believed JP Morgan was willing to pay for the
security.135
As the highest bidder, the Bear Stearns trading desk
purchased the 37 Remaining Securities, including the
Securities at Issue, for a total bid of $61,756,000.136
After the August 14 Auction was completed, Bear
Stearns allocated the auction proceeds across the
individual securities for purposes of Bear Stearns’
intra-company accounts.137 Bear Stearns allocated
value of $900,000 to each of the nine Securities at
Issue, for a total of $8.1 million.138
The Trustee argues that even if the auction process
was fair and in accordance with industry standards,
Bear Stearns could not rationally or in good faith
accept that the bid received from the Bear Stearns
trading desk represented the fair market value of the
Remaining Securities, or, in particular, the Securities
at Issue. The Trustee claims that his experts’ discounted cash flow analysis shows that the Securities
at Issue had a fair market value in August 2007
of approximately $124.6 million, rather than Bear
Stearns’ assigned value of $8.1 million. Bear Stearns
argues in response that the assumptions and hindsight analysis included in the Trustee’s DCF Model
inflated the value of the Securities at Issue to an

135

Joint Trial Ex. 18. Connell Tr. 271:9-272:5.

136

Joint Trial Ex. 19. Connell Tr. 272:6-272:19.

137

Stipulation of Undisputed Facts, ¶16. Joint Trial Ex. 15, 19.
Connell Tr. 267:2-268:12.
138

Joint Trial Ex. 15, 19.

90a
unrealistic figure, considering the market volatility in
August 2007.
The Trustee maintains that a model, such as the
DCF Model, should be used to value mortgage-backed
securities which have value because they are cash-flow
producing assets.139 A DCF Model for this type of
security makes assumptions about matters affecting
the underlying mortgages’ cash flows, such as prepayments, default risks, delinquency rates and loss severity rates.140 Other assumptions reflecting the time
value of money and the risks for these securities
determine the rate used to discount the cash flow
generated by the mortgages over time back to present
value.141
The Trustee’s three experts prepared and reviewed
the DCF Model to value the Securities at Issue. Mr.
Calahan constructed the original DCF Model “and
then Dr. DeRosa’s staff . . . took the model apart piece
by piece . . . [and] replicated the model that Mr.
Calahan did the heavy lifting on.”142 Drs. Mann and
DeRosa said that they tested the reasonableness of
the valuation assumption and suggested changes
when appropriate.143 The experts claimed to use only
historical information that would have been available
to someone in August 2007.144 Once the team was
satisfied with the assumptions and the discount rate,
the DCF Model was used to project the cash flow for
139

Mann Tr. 450:13-455:21.

140

Mann Tr. 452:23-454:4.

141

Id.

142

Mann Tr. 457:6-457:10.

143

Mann Tr. 456:15-457:15.

144

Mann Tr. 457:16-458:8. HomeBanc Trial Exhibit 77.

91a
the Securities at Issue, which were then discounted
to present value.145 Based on the DCF Model, the
Trustee’s team of experts opined that the aggregate
value of the Securities at Issue as of August 2007 was
$124.6 million.146
Bear Stearns criticized the Trustee’s DCF Model
because it did not consider the significant market
events occurring in and around August 2007, including bankruptcy filings of HomeBanc and American
Home Mortgage. The Trustee, however, claims that
any market dysfunction occurring in August 2007 did
not impact the value of the Securities at Issue because,
as stated by his expert Mr. Calahan:
[T]he value of the residuals is based on
expected cash flows, and expected cash flows
are driven by mortgage loan performance by
individual borrowers mailing in their checks
to the servicer, and they were . . . light years
apart from the trouble that was going on in
New York and London.147
The Trustee’s expert, Dr. Mann, also testified that the
bankruptcy remote structure of the securities prevented the bankruptcy of the issuer, HomeBanc, from
having any negative impact on the value of those
securities, explaining:
The whole structure of securities do not
depend in any way on the credit risk of the
original issuer . . . . The sheer act of bank145

Mann Tr. 457:16-465:19.

146

Mann Tr. 467:21-468:4. HomeBanc Trial Ex. 78 allocated
the total $124.6 million value among the individual Securities at
Issue.
147

Calahan Tr. 619:13-614:14.

92a
ruptcy wouldn’t have any impact on the
securities’ value. So American Home Mortgage goes bankrupt, HoraeBanc goes bankrupt, the securities depend on assets in the
special purpose vehicle and not on HomeBanc
or American Home Mortgage.148
On its own, the issuer’s bankruptcy may not have
had a significant impact on the securities’ value, but
the market turmoil was not limited to HomeBanc’s
troubles. Dr. Attari, Bear Stearns’ expert witness on
the valuation of residential mortgage-backed securities, testified that a DCF Model must be “anchored” to
“some market price or some form of price at which
people are either trading or willing to trade.”149 DCF
Models, like other valuation models, are, after all,
only artificial constructs, or proxies, for market value.
Bear Stearns asserts that the bankruptcy filings of
HomeBanc and American Home Mortgage, together
with stagnant or falling real estate values and other
volatility in the market, necessarily would affect the
assumptions in the Trustee’s DCF Model about
delinquencies, default rates and loss severity rates
which, in turn, would decrease the cash flows for
mortgages underlying the securities.150 I agree.

148

Mann Tr. 479:21-480:21.

149

Attari Tr. 898:9-898:18. Bear Stearns proffered, without
objection, Dr. Mukkarram Attari as an expert witness on the
valuation of residential mortgage-backed securities. Tr. 892:12892:19.
150

Attari Tr. 923:8-932:22. Dr. Attari opined, for example, that
the mortgage lenders’ bankruptcies limited the availability of
credit and prevented borrowers from being able to refinance their
mortgages on better terms, leading to possible defaults. Id at
927:22-928:10.

93a
The Trustee also argues that his DCF Model was
a better predictor of the actual cash flow of the
Securities at Issue. Bear Stearns assigned a value of
only $8.1 million for the Securities at Issue as a result
of the auction, but the Trustee asserts that the Securities at Issues’ actual post-petition cash flow between
August 9, 2007 and May 31, 2014 reached approximately $89.2 million.151
Dr. Mann testified that he and the other experts did
not use the actual cash flow information available in
2010, but relied on information that would have been
available in August 2007.152 Bear Stearns maintains,
however, that the cash flow in the Trustee’s DCF
Model aligned closely with the actual cash flow
through July 2010, and after that date, the projected
cash flow varied significantly from the actual cash
flows:


For the period August 2007-May 2010 the DCF Model predicted cash flows of $90
million, and the actual cash flows were
$76 million.



For the period June 2010-September 2014,
the DCF Model predicted cash flows of
$76.2 million, and the actual cash flows
were $13.2 million.



For the period October 2014 onward, the
DCF Model predicted cash flows of $99.7
million, while actual cash flows for the

151

HomeBanc Trial Ex. 106; HomeBanc Trial Ex. 132;
Calahan Tr. 647:8-649:9.
152

Mann Tr. 541:2-544:23.

94a
Securities at Issue ended before July
2012.153
The Trustee’s DCF Model predicted that future cash
flow from the Securities at Issue would exceed $265
million. Although the actual cash flow reached $89.2
million as of May 31, 2014, the parties agreed that the
securities were unlikely to have any additional cash
flow after that date.154 The DCF Model’s predicted cash
flows are largely overstated.
Bear Stearns also argues that the Trustee’s DCF
Model fails to account for or consider contemporaneous
mark-to-market valuations of the Securities at Issue
that were calculated by both Bear Stearns and
HomeBanc in the time period preceding HomeBanc’s
default and the subsequent auction.155 The Trustee’s
experts admitted that they did not adjust the DCF
Model to account for prices from transactions between
market participants that took place on or about the
August 2007.156 Bear Stearns contends that the critical
153

Mann Tr. 540:14-555:9.

154

Id.

155

Calahan Tr. 709:7-710:1. The United States Commodity
Futures Trading Commission’s Glossary defines Mark-to-Market
as:
Part of the daily cash flow system used by U.S. futures
exchanges to maintain a minimum level of margin
equity for a given futures or option contract position by
calculating the gain or loss in each contract position
resulting from changes in the price of the futures or
option contracts at the end of each trading session.
These amounts are added or subtracted to each
account balance.
http://www.cftc.gov/ConsumerProtection/EducationCenter/CFTC
Glossary/index.htm#M, last accessed May 8, 2017.
156

Mann Tr. 529:16-530:11. Calahan Tr. 717:9-721:21.

95a
valuation metric for repo securities was the daily
market value. The parties agree that the repo business
is a daily mark-to-market business, meaning that the
parties will calculate the value of the collateral subject
to the repo on a daily basis based on current market
conditions “to make margin calls if the collateral value
has gone down or to pay back margin if the market
value has gone up.”157 The parties also agree that
either could make a margin call on the other if it
believed that, owing to market conditions or otherwise, the market value of the securities underlying the
repurchase transactions had increased or decreased
such that more or less repo funding was appropriate.158
Consequently, the Bear Stearns repo desk reviewed
the market value for each security subject to the
repurchase transactions, including the HomeBanc
securities, in its daily Exposure Reports.159 A look at
the Bear Stearns Exposure Reports’ valuations at the
end of July and beginning of August 2007 shows the
following:160

157

Connell Tr. 167:13-167:23; Kubiak Tr. 360:3-361:14.

158

Chasin Tr. 1021:9-1023:12; See generally Joint Trial Ex. 1
at 9-11 (§4).
159

HomeBanc Trial Ex. 119; Chasin Tr. 1074:11-1074:24 (“The
exposure rcports were reports which we looked at on a daily basis
which showed us what the market value was of the securities
which we were leaning against . . . [W]e would make decisions as
to making margin calls or not”);
160

Bear Stearns Ex. 78.

96a
The Trustee points to the “disappearance” of $51.2
million of value in the Remaining Securities in one
business day (8/3/2007 was a Friday; 8/6/2007 was a
Monday) as evidence of bad faith by Bear Stearns. He
asserts that Bear Stearns artificially reduced the
value of the Remaining Securities in the Exposure
Reports by $51.2 million, knowing that if HomeBanc
defaulted on its obligation to repurchase the Remaining Securities on August 6, 2007 and Bear Stearns
took possession of those Remaining Securities, then
Bear Stearns would have to pay HomeBanc any
amount in excess of the debt under the netting
obligations in the GMRA.161
Bear Stearns counters that the significant decrease
in the market value of the Remaining Securities
between August 3, 2007 and the close of business on
August 6, 2007 that was reflected on the Exposure
Reports was due to events in the market, rather than
any nefarious purpose. General market stress was
causing prices to decrease sharply leading up to and
during this time.162 HomeBanc’s competitor, American
Home Mortgage, defaulted on its repurchase obligation to Bear Stearns shortly before August 3, 2007 and
filed for bankruptcy protection on August 6, 2007.163
Mr. Chasin testified that the default and bankruptcy
of American Home Mortgage signaled to market participants that securities comparable to the Remaining
Securities likely would be auctioned or otherwise sold
into the marketplace, which would cause increased
161

See Connell Tr. 124:2-125:23.

162

Kubiak Tr. 374:21-375:12; Bockian Tr. 819:7-820:4, 876:6881:11.
163

Chasin Tr. 1141:19-1142:7; Connell Tr. 177:4-177:12
(stipulation that American Home Mortgage filcd chapter 11 on
August 6, 2007).

97a
supply in a generally declining market and, consequently, further decrease prices.164
The Trustee also contends that Bear Stearns formed
a real estate investment trust (“SMOREIT”) on August
1, 2007 to facilitate its becoming the registered holder
of repo collateral of HomeBanc. Bear Stearns explained credibly that, as the markets got choppy in the
summer of 2007, it recognized the need to take various
steps to manage the risk associated with the securities
it was financing and ensure that it was prepared in the
event of a default. Establishing a REIT was one aspect
of “trying to get its ducks in a row” if it had to liquidate
collateral. 165
At the same time, HomeBanc also maintained an
internal mark-to-market spreadsheet reflecting the
market value prices obtained by Bear Stearns on the
Remaining Securities so it could track how much Bear
Stearns was willing to finance based on the securities.166 On or about August 5, 2007, Mr. Kubiak
(HomeBanc’s Chief Investment Officer) prepared a
spreadsheet of his “rough cut” estimate of what he
expected someone in the market might bid on the
Remaining Securities, including the Securities at
Issue.167 Mr. Kubiak testified that he believed the
securities were worth more, but he was calculating
what “the market would bid on those securities.”168 In
his analysis on August 5, 2007, he estimated that the

164

Chasin Tr. 1084:3-1085:10.

165

165Chasin Tr. 1136:15-1141:18; Connell Tr. 188:6-189:12.

166

Bear Stearns Ex. 8. Kubiak Tr. 364:8-371:2.

167

Bear Stearns Ex. 10.

168

Kubiak Tr. 389:4-393:13.

98a
market would value the Securities at Issue at roughly
$18.5 million.169
Bear Trial Exhibit 78 shows the gap between the
contemporaneous exposure report valuations in the
summer of 2007 and the valuations in the Trustee’s
DCF Model.

I agree with Bear Stearns that the Trustee’s DCF
Model value is far removed from what anyone in the
market was willing to pay for the Securities at Issue
in August 2007. Instead, the Trustee’s DCF Model
erroneously reflects the value of the Securities at Issue
as of July 2010, when the expert report was issued,
rather than a fair market value as of August 2007.
Bear Stearns maintains that it relied rationally on
the market to value the Remaining Securities. After a
thorough review of the language of the GMRA in
HomeBanc 1, I concluded that Bear Stearns had the
contractual right to exercise discretion in choosing a
rational manner in which the Net Value of the securities should be determined.170 I concluded:
Because the GMRA grants the non-Defaulting
party (in this case, the Bear Defendants)
contractual discretion with respect to post169

Bear Stearns Ex. 10. Kubiak Tr. 392:4-392:9.

170

HomeBanc I, 2013 WL 211180 at *16.

99a
default valuation of the securities, the circumstances in which this Court should intervene with the Bear Defendants’ exercise of
discretion to value the Securities at Issue
are limited. This is especially true given
the sophistication of the parties. The Bear
Defendants’ exercise of discretion must not be
arbitrary or capricious, but made honestly
and in good faith.171
Bear Stearns points to several independent factors
to support the rationality and good faith of its valuation: (1) the bid reflects the fair market value of
the Securities at Issue because the auction process
was fair and in accordance with industry standards;
(2) the bid reflected the contemporaneous estimates of
value for the Securities at Issue as shown on the Bear
Stearns Exposure Reports and the “rough cut estimate” of market value prepared by HomeBanc; (3) the
Bear Stearns trading desk’s individual bid for the last
security auctioned on August 17, 2007 was actually
higher than the price that HomeBanc thought JP
171

Id. The GMRA provides that it is to be “governed and
construed in accordance with the laws of England” (Joint Ex. 1,
§ 17). Therefore, I relied upon English case law deciding that “[i]t
is very well established that the circumstances in which a court
will interfere with the exercise by a party to a contract of contractual discretion given to it by another party are extremely limited.” Id. at *15 quoting Socimer Int’l Bank Ltd v. Standard Bank
London Ltd., [2008] EWCA (Civ) 116 [¶ 62] (Court of Appeal)
(Eng). The Socimer Court further noted, “This is the world of
sophisticated investors, not that of consumer protection. These
merchants in the securities of emerging markets have made an
agreement which speaks of the need for a spot valuation, not of
the more leisurely process of taking reasonable precautions, such
as properly exposing the mortgaged property for sale, designed to
get the true market price by correct process.” Socimer, at ¶ 22.

100a
Morgan had agreed to pay for it; and (4) HomeBanc,
itself, did not and could not find another repo counterparty that would finance the repo collateral or outright
purchase the securities for an amount great than the
aggregate repurchase price, which was approximately
$63.8 million at the time of the default.172
Bear Stearns’ expert, Dr. Attari, opined that “[t]he
results of a properly conducted auction give you the
value of the security, give you the highest amount that
someone is willing to pay for that security.”173 When
asked if the market could price a security inaccurately,
he answered:
After the fact, the people have pointed back
and said our market was pricing securities
incorrectly. But rarely has it been possible in
real time. In fact, one of the things that the
Fed has pointed out repeatedly is that it’s
almost impossible to identify bubbles, which
is when security prices are too high in real
time. And, you know, because bubbles cause
great harm to the economy after the fact,
[o]ne of the things they like to be able to do is
identify bubbles and make sure they don’t
occur, but it’s almost impossible to identify
them.174
Bear Stearns rationally accepted the highest bid by its
trading desk as the value of the Securities at Issue in
August 2007.

172

Kubiak Tr. 354:24-358:18; see also Connell Tr. 183:3-185:1.

173

Attari Tr. 903:9-903:12.

174

Attari Tr. 903:16-904:4.

101a
Conclusion
Courts must (1) determine facts based solely on the
record made at trial, (2) identify relevant legal principals, and (3) apply governing law. Therefore, based
on the record before me and addressing the issue
remanded by the District Court, I conclude that Bear
Stearns acted rationally, in good faith, and in accordance with the GMRA when it determined the fair
market price of the Remaining Securities, including
Securities at Issue, by holding a BWIC auction in
August 2007. The evidence showed that there was a
difficult, but functioning, market for selling the Securities at Issue and that Bear Stearns’ Bid Solicitations
complied with all the usual and customary standards
for holding a BWIC auction.
The parties will be directed to confer and submit a
form of order addressing each of the Trustee’s amended
crossclaims and Bear Stearns’ crossclaims consistent
with this Opinion, HomeBanc I, and HomeBanc II.
An appropriate order follows.
BY THE COURT:
/s/ Kevin J. Carey
KEVIN J. CAREY
United States Bankruptcy Court
DATED: May 31, 2017

102a
APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
No. 18-2887
————
In re: HOMEBANC MORTGAGE CORP., et al,
Debtors,
WELLS FARGO, N.A., in its capacity
as Securities Administrator
v.
BEAR STEARNS & CO., INC.;
BEAR STEARNS INTERNATIONAL LIMITED;
HOMEBANC CORP.;
STRATEGIC MORTGAGE OPPORTUNITIES REIT, INC.
GEORGE L. MILLER, Chapter 7 Trustee for
the Estate of HomeBanc Corp.,
Appellant.
————
On Appeal from the United States District Court
for the District of Delaware
District Court No. 1-17-cv-00797
District Judge: The Honorable Richard G. Andrews
————
Argued September 26, 2019
————
JUDGMENT
Before: SMITH, Chief Judge, McKEE, and PHIPPS,
Circuit Judges

103a
This cause came on to be considered on the record
from the United States District Court for the District
of Delaware and was argued on September 26, 2019.
On consideration whereof, it is now hereby
ADJUDGED and ORDERED that the judgment of the
District Court entered August 15, 2018, be and the
same is hereby AFFIRMED. All of the above in accordance with the opinion of this Court. Costs taxed to
Appellant.
Attest:
s/ Patricia S. Dodszuweit
Clerk
DATED: December 24, 2019

